<html>
<title> - [H.A.S.C. NO. 111-57]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-57]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

                     BUDGET REQUEST FOR DEPARTMENT

                        OF ENERGY ATOMIC ENERGY

                           DEFENSE ACTIVITIES

                               __________

                              HEARING HELD

                              MAY 13, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
52-827                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
SCOTT MURPHY, New York
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 13, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Department of Energy 
  Atomic Energy Defense Activities...............................     1

Appendix:

Wednesday, May 13, 2009..........................................    29
                              ----------                              

                        WEDNESDAY, MAY 13, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     3

                               WITNESSES

D'Agostino, Hon. Thomas, Administrator, National Nuclear Security 
  Administration, U.S. Department of Energy......................     5
Podonsky, Glenn, Chief Health, Safety, and Security Officer, U.S. 
  Department of Energy...........................................    10
Triay, Dr. Ines R., Acting Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................     7

                                APPENDIX

Prepared Statements:

    D'Agostino, Hon. Thomas......................................    33
    Podonsky, Glenn..............................................    94
    Triay, Dr. Ines R............................................    86

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Heinrich.................................................   113

Questions Submitted by Members Post Hearing:

    Ms. Tauscher and Mr. Langevin................................   117
 
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Wednesday, May 13, 2009.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. This hearing of the 
Subcommittee on Strategic Forces will come to order. Today we 
will consider the Department of Energy's (DOE) fiscal year (FY) 
2010 budget request for Atomic Energy Defense Activities.
    Let me begin by welcoming our distinguished witnesses: The 
Honorable Tom D'Agostino, Administrator of the National Nuclear 
Security Administration (NNSA); Dr. Ines Triay, Acting 
Assistant Secretary for Environmental Management (EM), 
Department of Energy; and Mr. Glenn Podonsky, Chief Health, 
Safety, and Security (HSS) Officer for the Department of 
Energy.
    I want to thank each of you for being here today. I also 
want to welcome to the hearing the newest member of the 
subcommittee, Mr. Murphy, of New York, who is not here, but we 
welcome him anyhow, and we are delighted that he is going to be 
on this subcommittee.
    The fiscal year 2010 budget request for the Department of 
Energy is slightly more than $26 billion. The Armed Services 
Committee annually authorizes about two-thirds of this total 
for Atomic Energy Defense Activities. For fiscal year 2010, the 
request of $16.4 billion for these programs is an increase of 
about $147.9 million over the fiscal year 2009 appropriation.
    This committee is a strong supporter of the critical 
missions embodied in your respective program area: maintaining 
and ensuring the reliability, safety, and security of our 
nuclear deterrent; conducting the scientific research, 
engineering, and production activities necessary to support 
that deterrent; keeping our nuclear weapons and the weapons 
complex safe from physical, cyber, and other threats; see to 
the government's international nuclear nonproliferation 
efforts; and cleaning up the environmental legacy work of 
decades of nuclear stockpile work.
    We are eager to hear testimony for the fiscal year 2010 
budget request. I am especially interested in your thoughts 
about the following issues: first, does the budget adequately 
fund the Stockpile Stewardship Program (SSP)? As the 
Congressional Commission on the Strategic Posture of the United 
States just wrote in its final report, the Stockpile 
Stewardship Program has been ``remarkably successful.'' 
Remarkably successful.
    But its continued success is not something we can take for 
granted. With world-class experimental tools like the National 
Ignition Facility (NIF), the Dual-Axis Radiographic 
Hydrodynamic Test (DARHT) Facility, and the Z machine now 
available to the NNSA, the stewardship program is poised for 
even greater achievement. But for that to happen, we must 
continue to sustain and strengthen the stewardship program.
    That means supporting both the scientific tools and 
advanced computing capabilities that are coming on line, as 
well as the world-class scientists and engineers that use these 
tools to run the stewardship program. In this context, the 
committee needs to know whether the budget adequately funds the 
exercise of these physical and intellectual capabilities.
    Second--and this is a question I ask year after year--does 
the budget properly balance various safety and security 
priorities? What impact will the new Graded Security Protection 
strategy have on your security investment strategy?
    And third, does the budget for Environmental Management 
support the numerous commitments the Federal Government has 
made? With the approval of more than $5 billion in Defense 
Environmental Cleanup funds in the 2009 stimulus package, can 
the Department successfully manage three years' worth of 
funding in two years?
    Finally, this committee continues to be concerned about the 
relationship between plans for consolidation of special nuclear 
materials (SNM) and other national security activities, 
including the stockpile stewardship, complex modernization, 
nonproliferation, and environmental cleanup. I hope that you 
can shed new light on the efforts to coordinate materials 
consolidation and disposition among the stakeholder offices 
within the Department. These are the concerns we hope you will 
address in your statements and during your discussion that will 
follow your testimony.
    Before I turn to my ranking member, the distinguished 
gentleman from Ohio, let me welcome our newest member. We are 
happy to have Congressman Murphy with us.
    You bring a special kind of background, as a former 
investment banker, to a former investment banker--a business 
that is now no longer in existence, by and large--I welcome you 
to the committee. It is a very, very interesting committee, and 
we are happy to have you along, Mr. Murphy. Thank you for being 
here.
    And now I would like to turn to my Ranking Member, the 
distinguished gentleman from Ohio, Mr. Turner, for any comments 
he would like to make.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chairman. I want to 
acknowledge that we have our chairman with us pending her 
confirmation by the Senate to an appointment to the State 
Department. We are very glad to have her continued leadership 
while we are awaiting that confirmation.
    I am told that our opening statements are--somewhat echo 
common themes. I think that shows the bipartisan concern that 
you have on this committee for this issue, and I would also 
like to welcome Scott Murphy to the committee. We look forward 
to your added thoughts on what really is an important issue for 
national security.
    I would like to welcome back Mr. D'Agostino and Mr. 
Podonsky, and extend a warm welcome to Dr. Triay, who this is 
her first appearance before the subcommittee.
    As I look at this year's Atomic Energy Defense Activities 
budget request, I can't help but think that we are in a state 
of treading water. The science and engineering campaigns are 
stagnated. Key decisions on warhead refurbishment are avoided. 
A significant number of construction projects are halted. We 
understand that many NNSA program decisions are on hold pending 
the completion of the Nuclear Posture Review, the NPR. This 
review, and the stockpile and infrastructure decisions that 
follow, can not happen soon enough.
    Earlier this year, the Commander of the U.S. Strategic 
Command testified, ``The most urgent concerns for today's 
nuclear enterprise lie with our aging stockpile, 
infrastructure, and human capital.'' The Chairman of the 
bipartisan Strategic Posture Commission, Dr. William Perry, who 
appeared before this committee last week, stated, the key to 
maintain a credible, safe, secure, and reliable nuclear 
deterrent rests with ``robust, healthy, vigorous weapons 
laboratories, a strong stewardship program, and an effective 
Life Extension Program.'' However, the commission observed two 
worrisome trends: The intellectual infrastructure is in serious 
trouble, and lab funding is likely to be reduced by 20 to 30 
percent in the out-years.
    The fiscal year 2010 budget request substantiates these 
concerns. There is a net decrease in NNSA's Science and 
Engineering Campaigns. Four of the five campaigns experience 
zero growth. The fifth campaign, Readiness, decreases by 38 
percent. In the Future-Years Nuclear Security Program (FYNSP), 
these campaigns show decreases from 1 to 20 percent in a given 
year. Has the NNSA thought about these trends and their 
implications? How does NNSA continue to meet the demands of the 
Stockpile Stewardship Program with fewer people and decreasing 
scientific resources?
    Furthermore, there is a serious need to transform the 
physical infrastructure. The commission recognized this and 
recommends that Congress fund NNSA's complex transformation 
plan. However, this year's budget request halts a significant 
amount of construction activities, accounting for a $111 
million decrease in Readiness in Technical Base and Facilities 
(RTBF). And, top commission priorities--the Chemistry and 
Metallurgy Research Replacement, CMMR, facility at Los Alamos, 
and Uranium Processing Facility, UPF, at Y-12--are only 
modestly funded.
    On the part of some, there appears to be a perception that 
if the stockpile goes down, we don't need these facilities, and 
perhaps, the NNSA budget can go down as well. Mr. D'Agostino, I 
would like to have your thoughts on this.
    In addition, though the fiscal year 2010 budget request 
terminates the Reliable Replacement Warhead, RRW, and avoids 
making substantial decisions on the stockpile, I would like to 
solicit your thoughts on how NNSA is approaching its 
modernization, or as Dr. Schlesinger prefers to call it, 
``refurbishment.'' The commission concluded that the current 
warhead Life Extension Programs (LEPs) could not be counted on 
indefinitely. They recommend that decisions about weapon 
modernization, or refurbishment, be made on a case-by-case 
basis that included consideration of a spectrum of options from 
component replacement to new design.
    Lastly, it strikes me that balance is the major challenge 
for NNSA in the years ahead--balancing recapitalization and 
modernization of the infrastructure, human capital, and weapons 
systems, all within an assumed flat or declining budget 
scenario.
    Shifting to other areas of the Department of Energy, Dr. 
Triay, I am concerned about the Department's nuclear material 
consolidation and storage plans. Can you update us on these 
plans and also discuss the implications of the President's 
decision to terminate the Yucca Mountain repository?
    Finally, Mr. Podonsky, physical security and the safe 
transport of our nuclear weapons and materials are top 
priorities for me. There is no margin for error. In the past 
year, the Department has replaced its Design Based Threat (DBT) 
security policy with the Graded Security Protection policy. 
What drove this change in policy, and what is the status of its 
implementation?
    The budget, and budget strategy, presented before us today 
may work for a single year, but it is not sustainable. Unless 
the placeholders we see in out-year funding are significantly 
changed based on the outcome of the Nuclear Posture Review, we 
risk losing our world-class intellectual talent and endangering 
our ability to successfully maintain and certify the stockpile.
    I would like to thank the chairman for calling this 
important hearing, and thank you for your leadership and 
service. I look forward to the testimony today.
    Ms. Tauscher. Thank you very much, Mr. Turner.
    We will begin with Mr. D'Agostino. Since we have received 
your prepared statement, and it has been entered into the 
record, I would like to simply have you summarize, if you can. 
We would welcome that.
    And let me also say that while the Armed Services Committee 
handles NNSA nonproliferation programs at the full committee, 
Chairman Skelton has agreed again this year to allow us to 
address the budget request for these programs as part of the 
hearing. So if you want to make some remarks about the fiscal 
year 2010 request for Defense Nuclear Nonproliferation (NN), we 
would welcome that, too.
    I just want to let the members know that we are expecting a 
series of three votes in a few minutes. At that time we will 
try to continue as best we can with our summarization of your 
testimony, and then we will take about a half an hour break and 
go back to the agenda as we have it.
    Mr. D'Agostino, the floor is yours.

 STATEMENT OF HON. THOMAS D'AGOSTINO, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. D'Agostino. Thank you, Madam Chair, and members of the 
subcommittee.
    Hi, I am Tom D'Agostino, the Administrator for the NNSA, 
and I am accompanied here by Brigadier General Harencak, who is 
the--potential running defense programs for me, and Ken Baker, 
as well. They are seated behind me, over my left shoulder, and 
I am honored to have them here helping me out--not just here 
today, but running the programs with me. It was a very exciting 
year for us.
    We appreciate the opportunity to appear before the 
subcommittee, and sincerely thank the subcommittee's support 
for our programs. We think they are quite important.
    The NNSA is critical to ensuring the security of the United 
States and its allies. The President's fiscal year 2010 budget 
request for the NNSA is $9.9 billion. It is an increase of 8.9 
percent over the fiscal year 2009 appropriated level. The 
budget request provides funding to enable the NNSA to leverage 
science to promote U.S. national security objectives. NNSA 
programs are on the front of lines for the following national 
security endeavors: Maintaining a safe, secure, and reliable 
stockpile and the capabilities that support the stockpile; 
accelerating and expanding our efforts here and around the 
world to reduce the global threat posed by nuclear terrorism, 
nonproliferation, and unsecured nuclear materials; providing 
the United States Navy with safe, military effective nuclear 
propulsion; and supporting U.S. leadership in science and 
technology (S&T).
    The President has initiated both steps to put an end to 
Cold War thinking, to lead to a new international effort to 
enhance global security. The fiscal year 2010 President's 
budget request is the first step toward implementation of this 
strategy.
    For our nonproliferation programs, funding increases are 
requested to expand and respond quickly to opportunities to 
reduce global nuclear threats. Increases are also requested in 
the Naval Reactors Propulsion Program to begin development of 
reactor and propulsion systems for the next-generation 
submarine along with other activities.
    The programs and the Weapons Activities appropriation 
budget strategy is to maintain capabilities and activities at 
the current level until the strategic direction is established 
in the upcoming Nuclear Posture Review. In President Obama's 
speech in Prague, he indicated his commitment to maintaining a 
safe, secure, and reliable stockpile while pursuing a vision of 
a world free from the threat of nuclear weapons. The NNSA 
maintains the unique knowledge, capabilities, and skills that 
are critical to achieving both of these objectives which, in 
many cases, some people think are opposing. Quite the 
contrary--they are complementary to each other.
    Our nonproliferation programs are focused on securing the 
key ingredients of nuclear weapons, and that is weapons-usable 
materials and the related equipment and technologies. 
Supporting NNSA's efforts include the Elimination of Weapons 
Grade Plutonium Production (EWGPP), which has been working with 
Russia to shut down Russia's plutonium production reactors, and 
the Fissile Material Disposition program (FMD), which will 
provide a disposition pathway to eliminate at least 34 metric 
tons (MT) each for the United States and Russia of weapons-
grade plutonium.
    The NNSA is a recognized leader on these and other 
nonproliferation initiatives to prevent proliferators or 
terrorists from acquiring nuclear weapons. This includes our 
activities to secure and reduce weapons-grade nuclear materials 
at sites worldwide, but also, NNSA's efforts to detect and 
intercept Weapons of Mass Destruction (WMD) or related 
materials that are in transit.
    In addition, we also worked in fiscal year 2010 to support 
the President's call to strengthen the Nonproliferation Treaty, 
support the International Atomic Energy Agency (IAEA), and 
strengthen international safeguards and technologies that 
support inspections that are so important to a future--safer 
future. To implement this comprehensive nonproliferation 
strategy, we will expand our cooperation with Russia, pursue 
new partnerships, and work to secure vulnerable nuclear 
material around the world within four years. NNSA's Global 
Threat Reduction program and the International Material 
Protection and Cooperation (IMPC) program will have a major 
role in this four-year plan.
    The NNSA is actively participating in our national debate 
over our Nation's nuclear security and nonproliferation 
strategic framework. This debate is not just about warheads and 
the size of our stockpile. It includes the inescapable 
obligation to transform our Cold War weapons--nuclear weapons 
complex into a 21st century nuclear security enterprise that 
retains the capabilities necessary to meet emerging national 
security threats.
    In a future with fewer warheads, no nuclear tests, tighter 
controls on weapons systems and our weapons materials 
worldwide, and effective counteraction of nuclear terrorist 
threats, the NNSA's science and technology capabilities will 
play an ever-increasing role to address these challenges. We 
must ensure that our evolving strategic posture and our nuclear 
stockpile, nonproliferation, arms control, and counterterrorism 
programs are melded together into a comprehensive strategy that 
protects America and its allies.
    The Department of Defense (DOD) has initiated the Nuclear 
Posture Review, which is scheduled to culminate to report to 
Congress in early fiscal year 2010. We are actively 
participating in this review and all of the aspects related to 
nuclear security.
    As you are well aware, the Commission on the Strategic 
Posture was established by this committee and, in fact, by 
Congress, to identify the basic principles for reestablishing 
the national consensus on the strategic policy. The commission 
has examined the role of deterrence in the 21st century and 
assessed the role of weapons in our national security strategy. 
Its final report was issued--I have a copy here--and it 
includes a variety of recommendations. I am familiar with the 
report and, given the breadth and scope of the report, the 
Secretary and I are actively taking a look at the--finding the 
recommendations and are coming to some conclusions. We haven't 
quite finished yet, and I expect we have an opportunity, maybe, 
to discuss some of those things today.
    As you know, we have made tremendous progress in reducing 
the size of the stockpile. The stockpile will be less than one 
quarter of what it was at the end of the Cold War--the smallest 
stockpile in 50 years. These reductions send the right message 
to the rest of the world that the U.S. is committed to Article 
VI of the Nonproliferation Treaty, which will help create 
positive momentum into the 2010 Review Conference--will be 
happening next year.
    Each year since this stewardship program was developed, we 
have been able to certify the safety, the security, and the 
reliability of the stockpile with no need to conduct an 
underground test. Since 1993, we have acquired a whole suite of 
capabilities--tools, or facilities, if you will--that are 
necessary to maintain this effective stockpile, and most 
recently, the National Ignition Facility has come on line. We 
are applying these tools to help solve current stockpile 
reliability issues.
    There are challenges, though, and the main challenge for 
our program for the future will really be to make effective use 
of these tools and capabilities. Following completion of the 
Nuclear Posture Review, we will prepare a 5-year plan that 
recapitalizes our infrastructure, retains our scientific 
technology and engineering capability and expertise, and really 
makes full use of the experimental and super-computing 
capabilities that we have invested in so far over the last 10 
years.
    Madam Chairman, numerous external reviews have identified 
the fragile state of our expertise and capabilities that reside 
in our people. It is very clear to me, people are our most 
important resource. We need to retain those skills and 
capabilities and develop the next generation of scientists and 
engineers and technicians needed to perform work in 
nonproliferation; needed to perform work in nuclear 
counterterrorism and forensics; and needed to perform work to 
maintain our deterrent. We also need these skilled people for 
the foreseeable future, especially when we consider a world 
potentially without underground testing.
    Madam Chairman, that concludes my statement. I will be 
pleased to take your questions.
    I do have your comments, Mr. Turner, Madam Chair, and I 
will be glad to address them in the question and answer (Q&A) 
part of the committee.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 33.]
    Ms. Tauscher. Thank you, Tom.
    Dr. Triay, welcome. I believe this is your first appearance 
before the subcommittee, and we welcome you. And the floor is 
yours.

STATEMENT OF DR. INES R. TRIAY, ACTING ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Dr. Triay. Thank you.
    Chairman Tauscher, Congressman Turner, and members of this 
subcommittee, I am pleased to be here today and to address your 
questions regarding the Office of Environmental Management 
fiscal year 2010 budget request.
    The Office of Environmental Management's mission is to 
complete the environmental cleanup of the legacy left by the 
Cold War in a safe, secure, and compliant manner. Our goal is 
to complete this mission by keeping our projects on schedule 
and within budget. We will continue to proactively pursue our 
cleanup objectives and our regulatory compliance commitments. 
At the same time, we will continue to seek out sound business 
practices in order to maximize cleanup progress. We have put 
forth this effort to achieve the greatest environmental benefit 
by maximizing risk reduction while being good stewards of the 
taxpayers' money.
    To best achieve the Office of Environmental Management's 
cleanup mission, we have prioritized the cleanup activities 
that are conducted at the sites. High-priority cleanup 
activities include requirements necessary to maintain a safe 
and secure posture at each site: radioactive tank waste 
stabilization, treatment, and disposal; spent nuclear fuel 
(SNF) storage, receipt, and disposition; and special nuclear 
material consolidation, processing, and disposition. These 
activities represent the highest risks that the Environmental 
Management Office faces and make up a large portion of our 
fiscal year 2010 budget request.
    In more specific terms, we have made substantial progress 
in the areas of consolidating surplus special nuclear materials 
and stabilizing plant waste. To date, the Office of 
Environmental Management has eliminated 11 of the 13 highly 
secure nuclear material locations.
    At the Hanford site, the Office of Environmental Management 
has transferred pumpable radioactive liquid waste from leaking 
underground single shell tanks to more durable double shell 
tanks. Parallel to that effort, we are also pursuing tank 
cleanout at Idaho, Hanford, and the Savannah River Site (SRS).
    In addition, the Office of Environmental Management has 
nearly completed the transfer of spent nuclear fuel from wet to 
dry storage. Many of these storage areas were aging basins 
filled with radioactive water. At the Idaho National 
Laboratory, these basins were located over a groundwater 
aquifer, and at Hanford, these basins were located within a 
quarter-mile of the Columbia River.
    We continue to move forward with the design, construction, 
and eventual operation of three large tank waste processing 
plants. These processing plants will treat approximately 88 
million gallons of radioactive tank waste. The estimated total 
cost for construction of these three plants is $14.3 billion. 
The Office of Environmental Management remains devoted to 
building the capability for tank waste treatment and 
disposition. The Office of Environmental Management's fiscal 
year 2010 budget request fully funds these high-priority 
activities.
    We are also focusing on technology development in our 
fiscal year 2010 budget request. Technology development is 
instrumental in reducing the technical uncertainties that come 
with the construction and operating of these unique cleanup 
facilities. Because of these challenges, we have increased 
technology development and deployment funding to $105 million 
in fiscal year 2010. The Office of Environmental Management 
(EM) will target its science and technology investments on 
solving challenges associated with tank waste management and 
high-risk groundwater remediation. We are confident that with 
an increase in funding, the Environmental Management program 
will be better positioned to address science and technology 
uncertainties associated with these activities.
    The Office of Environmental Management will also continue 
to seek ways to maximize footprint reduction efforts. Footprint 
reduction activities include the decontamination and 
decommissioning of excess facilities, source and groundwater 
remediation, and solid waste disposition. Each of these 
activities has proven technologies and established regulatory 
framework. Footprint reduction makes laboratory facilities in 
the Department of Energy and other site infrastructure 
available for beneficial reuse. In fiscal year 2010, many of 
the footprint-reduction activities would have been deferred to 
fund higher-risk activities. However, because of the American 
Recovery and Reinvestment Act funding provided by Congress, the 
Office of Environmental Management was able to fund many of 
these footprint-reduction activities.
    Now that we have outlined our program priorities, I would 
like to discuss some key cleanup strategies. The Office of 
Environmental Management continues to have a strong commitment 
to safety first--the safety of our workers, the public, and the 
environment. Safe operations and cleanup is our overarching 
goal with every activity that is commenced.
    As the committee is aware, the Office of Environmental 
Management has come under considerable criticism for its 
execution of these projects. Aggressive efforts are underway to 
transform the Environmental Management program into a best-in-
class project management organization. It will strengthen our 
project management capability and improve the skill set of our 
project management teams. This budget request supports 1,674 
full-time equivalent employees to assist in this effort. We 
have added over 300 mission-critical hires since 2007 to 
support both the best-in-class project management initiative 
and align the program with the human capital recommendations 
made by the National Academy of Public Administration.
    With these planned improvements in project management and 
acquisition, the Environmental Management program will move 
forward, will identify and manage the programmatic risks 
associated with start of construction during the early stages 
of the design phase. We will also integrate safety early in the 
design phases of all projects. We currently are instituting 
construction project reviews that are modeled after the reviews 
performed by the Department's Office of Science that have had 
great success in delivering projects on cost and schedule. 
These independent reviews will examine all detail aspects of 
our construction project. This process will include expert 
knowledge and experience of world-class engineers, scientists, 
and managers.
    With all of these improvements, we are confident that the 
Environmental Management program can succeed in its mission.
    Chairman Tauscher, Congressman Turner, and members of the 
subcommittee, I look forward to addressing your questions.
    And on a very personal note, within the Department of 
Energy, we really thank Chairman Tauscher. Your leadership has 
made all the difference for our program.
    [The prepared statement of Dr. Triay can be found in the 
Appendix on page 86.]
    Ms. Tauscher. Thank you very much. Well, I am aided by my 
fabulous colleagues and great staff, so no one ever does 
anything alone, as she so well framed.
    Dr. Triay, thank you for your testimony.
    Mr. Podonsky, you are a veteran of appearing before the 
subcommittee, and we want to welcome you back. The floor is 
yours. We have been called for a vote, so if you could limit 
your time to about five minutes, then we will go take a vote.
    Thank you. The floor is yours.

STATEMENT OF GLENN PODONSKY, CHIEF HEALTH, SAFETY, AND SECURITY 
               OFFICER, U.S. DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Chairwoman Tauscher, Ranking 
Member Turner, and members of the subcommittee, for inviting me 
to testify today on the fiscal year 2010 budget for the Office 
of Health, Safety, and Security. As you know, we are the 
Department's central organization responsible for the health, 
safety, security, and environment, designing policy, taking 
closed systems, training, and Department-wide enforcement and 
independent oversight.
    The brevity of my oral statement is not a reflection of our 
responsibilities, but a reflection of your limited time. So I 
will simply conclude and say that I look forward to answering 
your questions that you posed in your opening statements, and 
we look forward to continued support from the Congress, the 
Department, and our stakeholders, so that we can continue to 
strengthen the Department's health, safety, and security 
posture.
    [The prepared statement of Mr. Podonsky can be found in the 
Appendix on page 94.]
    Ms. Tauscher. That is a true veteran. Thank you.
    Colleagues, we have three votes that will take about a half 
an hour on the clock, but about 40 minutes in real time. So we 
will adjourn for about 40 minutes. We will be back as soon as 
we can. We thank the witnesses for their forbearance, and the 
subcommittee is temporarily adjourned.
    [Recess.]
    Ms. Tauscher. The hearing will resume. I am going to begin 
our questions and our discussion by going back to the science-
based Stockpile Stewardship Program. The Strategic Posture 
Commission discussed at some length the future of the nuclear 
security complex and the laboratories in particular.
    The commission noted that many of the best veteran 
scientists at the labs are taking early retirement, and many 
younger scientists are seeking employment elsewhere. The 
commission noted that the problem of maintaining the 
intellectual expertise necessary to execute the Stockpile 
Stewardship Program is ``aggravated'' by budget pressures; 
pressures that are made worse by the need to reduce spending on 
science and engineering in order to fund improvements in the 
physical infrastructure of the complex.
    But of the greatest concern to me, the commission also 
found that, ``The NNSA expects to reduce the number of 
laboratory personnel funded by the weapons program by 20 to 30 
percent. It is doing so without any understanding of what types 
of expertise to seek to retain or reduce. It does not know 
whether the results will be a weapons program too large or too 
small to meet its required purposes.'' Then, with a remarkable 
flair for the understatement, the commission said, ``This poses 
several risks.''
    Administrator D'Agostino, I want to know whether the NNSA 
has conducted any analysis of the staff reductions that have 
taken place at the nuclear security laboratories over the last 
two years, which total more than 4,000 at Livermore and Los 
Alamos alone? And secondly, do you plan, and does the fiscal 
year 2010 budget request entail, any additional staff 
reductions? And thirdly, what steps does the NNSA plan to take 
to ensure that we retain the intellectual capability needed to 
continue the success of the Stockpile Stewardship Program?
    Mr. D'Agostino. Okay. I will answer your questions in 
order, but I will maybe have to start off with a comment. 
Though I agreed in large part with most of the commission's 
report, I would argue with the details. The statement of a 20 
percent--20 to 25 percent reduction in the Weapons Activities 
account is a true statement, we think.
    One of our strategies--we have, actually, four main 
strategies: Change the stockpile, change the infrastructure, 
change the way we do business, and support the science and 
technology base. So those two middle strategies--change the 
infrastructure and change the way we do business--mean, 
basically, do things more efficiently. And we think we can 
drive out what I would call kind of inefficiencies that have 
built up over 30 or 40 years of the program, and in fact, as 
the laboratories have--rightfully, they have come down 4,000 
over the last couple years, and that is a very significant 
number. The majority of those changes happened in areas of what 
I would call administrative, technical support, operations 
support. In a new infrastructure, you don't need as many 
maintainers. Right now, we have a lot of people taking care of 
Cold War facilities, and that is very expensive, and we want to 
get out of that business.
    So in effect, this 4,000 reduction was an opportunity--and 
Director Miller and Anastasio took advantage of it--to shape 
the workforce for the future. So the short answer to your 
question, yes, we are very aware of--we did do a study; we took 
a look at the skills that we lost. It is never good to lose any 
skill, but where our focus was was to try to retain the skills 
that mattered the most to the core program.
    Second point is, that hasn't--unfortunately, 4,000 people 
is a significant part of the workforce, and that sends a signal 
and it really hurts morale. And that is an unfortunate part of 
reshaping the workforce--is there is kind of a spinoff effect, 
and we have lost a few folks. The 2010 budget plan is 
specifically crafted to avoid major changes in workforce. As 
Mr. Turner correctly pointed out, there are a lot of flat-line 
numbers when you look at our program, particularly into the 
out-years.
    I don't like the idea of having flat-line numbers in the 
out-years, because it sends a signal to your workforce that the 
country thinks this is just to keep on--it is just a flat 
program and it has got no future. But in reality, we made some 
changes in the last few months to actually add money to science 
and technologies to ensure that we didn't take any major 
reductions in that area. So our focus, ultimately, with the 
Weapons Activities account, which includes support for not just 
warheads but, quite frankly, nuclear counterterrorism, and 
incident response, and things that we think are very important 
for the future--specifically crafted to avoid layoffs.
    Your last question was, how would we put together a program 
to retain people----
    Ms. Tauscher. Correct.
    Mr. D'Agostino [continuing]. And I think it is done 
probably in a couple of fashions. One is, obviously, we need--
we have elements of our program to fill the pipeline of young 
folks that are going to come in behind and get trained. And 
there is a program right now that we have to get folks from 
Historically Black Colleges and Universities and other minority 
institutions, as well as big schools--one from Washington--but 
the focus is to get those folks out into the labs. Each 
laboratory has their own undergraduate, graduate degree 
programs to bring people in.
    I think the best signal to send, quite frankly, will come 
in the form of, you know, a report like this Strategic Posture 
Commission report, whose ultimate aim is to drive this national 
consensus on where our programs are going out into the future; 
because our scientists and engineers look at these programs, 
they listen to these testimonies, they read the transcripts, 
they read the conference report language, and they want to get 
a sense that the country cares about this program.
    I care passionately about it. They need to see it in 
financial terms; they need to see it in the words from the 
Administration; and, they need to see it in the words from the 
Congress. I think we are on the way to turning the corner and 
getting that national consensus. In my view, that will send one 
of the best signals to getting the workforce confident that 
they are on the right track.
    Ms. Tauscher. I agree with you. I think that the--one of my 
first meetings with the Strategic Posture Commission, I asked 
them to have--provide us with a narrative, not only with 
results of their hard work, but to provide us with a narrative. 
And I asked them to make it readable and have it produced like 
the 9/11 book was.
    And I think that what that book does is provide every 
American with an opportunity to understand where their 
investment capital is going. And I think it also creates a 
raison d'etre for the scientific community, the innovative 
community, the technology community----
    Mr. D'Agostino. Right.
    Ms. Tauscher [continuing]. The academic community, to see 
that there is a big future for folks that want to go into this 
line of work. And that not only are they going to get rewarded, 
as everyone does, commensurate with their hard work, but this 
is a very patriotic way to serve your country.
    Mr. D'Agostino. Right.
    Ms. Tauscher. I have one more question.
    Dr. Triay, I would like to ask about the office's handling 
of the funding provided for the Defense Environmental Cleanup 
through the stimulus, basically, the American Recovery and 
Reinvestment Act. In addition to the $5.7 billion appropriated 
for the Defense Environmental Cleanup for fiscal 2009, the 
stimulus package provided $5.1 billion. The request for these 
activities for fiscal 2010 is $5.5 billion. This is essentially 
three years' worth of funding in two years.
    First of all, do you anticipate any challenges associated 
with finding the contractor workforce to carry the Recovery Act 
work without detracting from EM's program baseline activities? 
And second, will you be able to obligate the Recovery Act 
funding within two years and expend it within five years, as 
required by law?
    Dr. Triay. Thank you for the opportunity to talk about the 
Recovery Act funding for the Environmental Management program. 
We selected the portfolio of the Recovery Act in a very careful 
manner. Our portfolio is geared toward reducing the footprint 
of the environmental management legacy cleanup complex and, in 
particular, disposition of solid waste, decontamination, and 
decommissioning, and demolition of excess facilities, and in 
addition to that, dealing with soil and groundwater 
remediation.
    The reason we did that is because we wanted to actually 
maximize the jobs, while at the same time maximizing the 
cleanup progress that we can make. This area has proven 
technologies, has an established regulatory framework, the 
contract vehicles are in place. And the Environmental 
Management program, even though we have had issues associated 
mainly with our construction project performance management, in 
these areas associated with footprint reduction, we have had a 
proven track record of good performance. In addition to that, 
we have demonstrated that we can get great economies of scale 
and a substantial return on investments.
    In 2005, the Environmental Management program had an annual 
budget of $7.3 billion. Since 2008, our budget--annual budget--
has not exceeded, essentially, $6 billion. So the Recovery Act 
funding actually addresses some deferred activities in these 
areas associated with footprint reduction, fully funds 
underfunded contracts that we already had for these three 
areas, and improves the compliance posture of the Environmental 
Management complex.
    In addition to that, it deals with some of the high-risk 
activities associated with the excess facilities not only in 
the Environmental Management program, but in NNSA, in Science, 
and in Nuclear Energy. In January of 2009, the Environmental 
Management program was required by Congress to send a progress 
report of the cleanup progress, and in that report and in a 
previous report, we delineated that there are 340 excess 
facilities and materials in NNSA, Science, and Nuclear Energy 
that were not part of the Environmental Management portfolio, 
that would increase the lifecycle cost of the Environmental 
Management program by $3 billion to $9 billion.
    So the Recovery Act fund has not only assisted us in 
dealing with those deferred activities already in the EM 
portfolio, but also deal with some of the high-risk excess 
facilities in other programs. In particular, for instance, in 
Y-12, as you know, there has been a significant issue with 
respect to the deterioration of some of those facilities, and 
this--substantial amount of this funding is utilized for 
programs in addition to EM.
    With respect to your question about whether we were going 
to utilize the entire five years that the Recovery Act 
delineates for execution of this program, our target--our 
goal--is to obligate the funds by the end of 2009 and finish 
our portion of the Recovery Act activities by the end of 2011. 
That is our goal, and the reason for that is, again, because we 
wanted to maximize the jobs that would be created.
    Chairman Tauscher, I have to tell you that at Oak Ridge, 
Tennessee, Washington State, South Carolina, when we have job 
fairs, we have on the order of 5 to 10 times the number of 
individuals showing up for jobs as the jobs that we have to 
give out. The Environmental Management program has very 
rigorous training processes to train workers that were 
previously construction workers to do work in decontamination 
and decommissioning; using very rigorous processes for handling 
radioactivity. So, we are confident that we can find the 
workforce and that we can train it appropriately and we can do 
this work safely.
    Ms. Tauscher. Thank you, Dr. Triay.
    I have some questions for Glenn Podonsky, but I am going to 
wait until the second round. And I am going to yield time, now, 
to the distinguished Ranking Member, Mr. Turner, of Ohio.
    Mr. Turner. Thank you, Madam Chairman.
    Mr. D'Agostino, you, in your comments, acknowledged the 
President's statement of desiring to have a world free of 
nuclear weapons, and that is a very laudable goal. The 
Strategic Posture Commission, in their report, indicated that 
it would take political transformation unlike what is expected 
or foreseen in order for that to be accomplished. And then they 
go on to indicate that a significant investment needs to be 
maintained in order to ensure that we have our strategic 
deterrent.
    One of the interim steps, obviously, to the laudable goal, 
is stockpile reduction, and a recognition that, perhaps, the 
strategic deterrent can be satisfied with a lower number of 
weapons overall. As we do that--there are many who would like 
to see the goal of no nuclear weapons--I think even those who 
would support or desire the United States to have no nuclear 
weapons would want, and understand that the United States needs 
to have, nuclear capability, we need to have the conditions of 
an infrastructure that is capable, and that we need to engage 
in activities, research and development that can encourage the 
type of ingenuity that could perhaps lead us to even other 
greater discoveries.
    I know that you have a concern that as we look to reducing 
our stockpile, that there might be a misunderstanding that that 
would reduce, correspondingly, our overall costs in having 
nuclear capability--our labs, our infrastructure that supports 
the know-how and the weapons that we maintain. So, if you could 
speak for a moment about the size of the stockpile and the 
level of capability needed, size of facilities needed, and also 
discuss the Chemistry and Metallurgy Research Replacement 
facility at Los Alamos, the Uranium Processing Facility at Y-
12--your thoughts about how stockpile reduction relates to 
savings, and also the issue of how do we ensure that we 
maintain our investment?
    Mr. D'Agostino. Thank you, sir.
    Absolutely, in my view there is a false view out--kind of 
out there--that says if you reduce your stockpile by half, you 
can reduce your budget by half, or your program by half, and 
consequently, your facilities by half, and just keep reducing 
everything by half or even smaller, quite frankly.
    But I think most people that spend time and ultimately have 
the responsibility for--and we are in positions of 
responsibility here on the committee, as well as in the 
Executive Branch--to making sure that the country's national 
security is maintained not only today, but more importantly, 
out into the future, because the future is uncertain. We don't 
know what that future holds.
    But one thing we do know is that we have been quite 
fortunate to have invested the amount of effort we have in the 
people and in the facilities that we currently have right now, 
because they are dealing with problems that 10 years ago, we 
would never have imagined we can deal with. So it is this 
question of capability versus capacity. And when we took a look 
at what we had called ``transformation from a nuclear weapons 
complex to a 21st century national security enterprise,'' we 
took a look at it with exactly that in mind: What capabilities 
do we need to maintain out in the future? When we look at 
reducing the size of the stockpile, what impacts does it have 
on our facilities?
    And what we found out is, we are at that point where we are 
at that bottom plateau. As you start reducing your--how much 
work you have to do, we are down at reducing--we think we are 
going to take our infrastructure to a point where it will 
either produce one of or up to a small number of what we think 
the country might need out in the future. For pits, for 
example, we are shooting at this 50 to 80 number, so a fifth 
per year. Not because we were going to plan on building 50 to 
80 weapons per year, but because the Nation needs the 
capability to do that in this uncertain future.
    I liken it to a garage that exists in the neighborhood. You 
know, the garage has a lift--most of them have two lifts--it 
has a mechanic, and it has a set of tools. And that garage can 
take care of 1 automobile for the whole year, or it can take 
care of X number, maybe 100 or something like that, for the 
whole year. But it provides you a range of capability. And that 
is where we are. That is where our plan is right now, is to do 
that. And to take care of that capability requires resources.
    With respect to CMRR, the Chemistry and Metallurgy 
Replacement facility, that facility is designed--again, as I 
mentioned to the chairman earlier, we are trying to change the 
way we do business and have a much less expensive 
infrastructure and much smaller infrastructure, one that is 
sized for the future. That capability that we would like to 
bring there will allow us to reduce the number of plutonium 
facilities in our infrastructure from nine down to two.
    Now, that is cheaper. That allows me to take that money I 
save there and invest it in scientists and engineers, and 
actually have them work in a facility that is designed with the 
future in mind, unlike the facilities we had built during the 
Cold War. So there is a lot of money to be drawn out of the 
program by consolidating. The Uranium Processing Facility at Y-
12--building that structure will allow me to shift from 150 
acres of security footprint in very old Cold War facilities, to 
15 acres of security footprint in modern 21st century 
capabilities that allow me to drive my security costs way down. 
In fact, we think we can save over $200 million a year at Y-12 
alone. This is in a separate audit we did just on the basis of 
building that facility. That is almost a facility that builds 
itself--that pays for itself over a 15-year or less time 
period.
    So, my goal is, ultimately, when the--as we work the 
Nuclear Posture Review, which is actually happening today, and 
it has happened yesterday, and it is going to be happening very 
intently over the next three months or so--getting that output 
and having that shape this program in a cohesive manner for 
five years get a--and then send that right signal to our 
workforce that there is a future in doing nuclear security 
work. And when I say nuclear security, certainly the deterrent 
is in that, but also nuclear counterterrorism, 
nonproliferation, forensics, intelligence analysis, incident 
response, and that whole suite of things that I believe the 
country needs.
    Mr. Turner. Thank you.
    The Strategic Posture Commission also spoke a lot about our 
aging stockpile using the words--it concerns issues of 
modernization, or as Dr. Schlesinger says, refurbishment of our 
stockpile. Could you please tell us--give us a picture of 
trends that we are facing with our nuclear stockpile and what 
types of issues we are going to be facing with weapons 
capabilities and performance? What are we going to need to do? 
Even if we reduce our stockpile, with those that are left, what 
is ahead of us?
    Mr. D'Agostino. By reducing the stockpile, which is 
something that is clearly--that we are trying to do in this 
Administration, and not only reducing, but taking the warheads 
apart, ultimately, and dealing with the material that we have 
left, we have to--because we will have smaller numbers of 
warheads and because we still have an extended deterrent that 
we extend out to 30 of our allies in other nations, it places a 
real premium on the warheads that you have and on our desire to 
make absolutely sure we know exactly what is going on with 
those warheads.
    General Chilton has once called these warheads chemistry 
experiments kind of in action. That is a great way to describe 
that. You have got radioactive material radiating various 
organic materials and causing them to change over time. Many of 
these warheads have been out there for 20, 30 years or so. So 
what we are seeing is, from a trend standpoint, is that the 
aging--we are seeing problems that we did not expect to see. 
When we started the Stockpile Stewardship Program 10 years ago, 
we expected to see certain problems, and what we found out is 
that we aren't always that great at predicting the future. We 
have been able to address all the problems we have found, and 
there are problems that came up we didn't expect to see.
    But what is clear is that things are changing. I am very 
confident in the Significant Finding Investigation process and 
the accountability we have in there, and my briefs to the 
Secretary and tracking on the specifics. But if we don't change 
into a--what has been termed ``the spectrum of activities,'' 
which I think is right--we don't look at changing the way we 
modernize, we are going to continue to run into more and more 
problems. And ultimately, my job is to make sure that we have a 
stockpile that will never need an underground test for the 
Nation.
    And so that is why I completely agree with the commission 
saying that these have to be done on a case-by-case basis, 
because every warhead is different. And I am very pleased to 
see that despite a--I mean, they have spent a lot of time 
looking at this topic. They came to the same conclusion that we 
in the--to a similar conclusion that we in the program have 
looked at over the last number of years.
    Mr. Turner. Very good.
    Thank you, Madam Chairman.
    Ms. Tauscher. Thank you, Mr. Turner.
    I am happy to yield five minutes to the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    I thank the panel for testifying today, and if we could 
maybe continue on that line of questioning, looking at the 
Stockpile Stewardship Program.
    Can you talk about your highest priorities and areas of 
emphasis for NNSA science-based Stockpile Stewardship Program, 
and do you have the tools and the capabilities in place that 
you need, and what are the gaps, if any? And if you could 
also--mindful that we are in open session--could you also give 
examples of the challenges the stewardship program will 
confront in the coming years? And could you indicate the time 
outlines involved with those challenges? For example, when the 
challenges--when will the challenges manifest themselves?
    Mr. D'Agostino. Thank you, sir. My highest priority, quite 
frankly--well, probably kind of look at it in two ways. There 
is a tactical priority that I have right now, which are the 
people--sending the signal to the people in this infrastructure 
and program that the work they do is important, and making sure 
that message gets out. I think we have gone through, over the 
last few years, a pretty rough period, quite frankly, of lots 
of pressures from an infrastructure standpoint, uncertainty on 
where the program is going, and not so discreet trends with 
respect to investments in science and technology.
    I see that tactical problem landscape changing a little 
bit, from a challenge standpoint, because we are getting a bit 
closer, with the Nuclear Posture Review and with this report 
that we have, toward getting that consensus. So that will take 
care of that part of the tactical problem.
    I see us taking well over $100 million--about $130 million 
a show out of our infrastructure investments, so that creates 
another problem. But bringing it back in to support programs in 
computing and in high-energy density physics that are important 
for the future. So, we are dealing with that near-term tactical 
problem.
    The more strategic challenge I think we face after we get 
this national consensus is putting together an integrated 
program that deals with fully utilizing these tools that we are 
bringing onboard, that we have brought onboard. I am talking 
about the National Ignition Facility, the Dual-Axis 
Radiographic Hydro Test facility at Los Alamos, the Z machine 
at Sandia, the Joint Actinide Shock Physics Experimental 
Research (JASPER) facility, which is a Livermore facility but 
it is at the Nevada Test Site. In other words, now that we have 
invested a lot of the money here, well, let us get the 
experimental data out of that, and then let us make sure we 
have the scientists and engineers that can analyze that 
information to send us in the right direction out in the 
future.
    And we will have to reinvest in our infrastructure, and 
ultimately all those things are going to require additional 
resources. And it comes down to money, but I can't ask for the 
money unless I have the strategic context to put those 
resources in. And that is why I am anxious, quite frankly, to 
get past--I mean, the consensus and the strategy phase is the 
right thing. I am anxious to get past that and to get into 
developing that program, and that is what, in essence, we will 
be doing this summer.
    Timelines involved, I think, was the last part of that 
question. As we go through this next upcoming decade, there 
will be a few--if we can get the infrastructure facilities that 
we--Mr. Turner talked about, the UPF, or Uranium Processing 
Facility, and our plutonium capability back up to speed, I 
think we are going to start seeing some significant--it will 
allow me to shift some significant resources into the S&T 
program without changing the bottom line of the program. And 
that will happen mid to end of next decade. These are very 
complicated facilities to build.
    We have gotten a lot of use out of these Cold War 
facilities. We need to get our people out of them. That is one 
way we show respect, quite frankly, to the workforces: Put them 
in facilities so I don't have my good friend, Glenn Podonsky, 
you know, rightfully saying, ``Hey, we might have some safety 
problems here, Tom,'' or, ``We might have some security 
problems here.''
    So I am anxious. I think there is a great opportunity that 
we have over the next few years to shape this program the right 
way. I see it. My job ultimately is to put together that 
program for you, for the President, and ultimately to bring it 
here to you and explain it to you in more detail. And in 
effect, we are in a kind of a one-year budget scenario. We have 
put together a program to stop things from getting worse while 
we define what that better future is going to be. It is a 
little different than normal, unfortunately.
    Mr. Langevin. Thank you, sir.
    Ms. Tauscher. Thank you, Mr. Langevin.
    I am happy to yield five minutes to the gentleman from New 
Mexico, Mr. Heinrich.
    Mr. Heinrich. Thank you, Madam Chair.
    Thank you all for being here today. I am going to jump 
right into a number of sort of specifics, and they deal with 
this issue that you have already alluded to of the general 
strategic context. And some of that I will infer from comments 
and speeches that the President has made regarding the 
Comprehensive Test Ban Treaty (CTBT), the potential for 
additional negotiations in strategic arms reduction, and the 
need that you articulated to be able to have the adequate 
science and the adequate capacity to make sure we support the 
capabilities doing those things.
    I am very concerned with the proposed budget for Sandia's 
science and inertial confinement fusion campaigns. The NNSA's 
fiscal 2010 budget request represents a $19 million cut from 
fiscal year 2009--I think that is about 35 percent. And at the 
newly refurbished Z machine, your budget will cut the annual 
shot rate from 200 in 2009 to around 130 in 2010, even though 
the weapons in high-energy density physics user community have 
an operational requirement of over 400 shots, I believe. At a 
time when we are reducing the stockpile and must increase our 
investment in science-based Stockpile Stewardship Programs, 
aren't you concerned with such a dramatic cut to the operations 
of science facilities, for example, the Z machine and Sandia?
    Mr. D'Agostino. Yes. The answer to your question is, I am 
very concerned. The 400 shots that we had previously were kind 
of a two-shift operation, in effect, for the Z machine. We are 
down to about 80 percent of a one-shift--fully loaded one-shift 
operation. What we focused on doing were making sure that we 
had a minimal--I would say, is a minimal set of shots we needed 
to support the primary mission of the Z machine, which is the 
stockpile itself, and we are confident we have a program that 
does that.
    There is absolutely a lot more work we could do with the Z 
machine. You know, in the aggregate the Sandia budget is, in 
effect, flat, and there are decisions that we had to make--that 
my staff had to make--with respect to how much should go in 
this versus how much should go in that one. And we felt when we 
balanced across all of this, that keeping the lab--not hurting 
the lab population, doing some reprioritizations with respect 
to what we need to do in the future, was the right thing to do.
    It ended up having an impact on the Z machine. It is 
ultimately my responsibility. It is a decision that I made. 
With more money, we would have definitely put it there, but we 
definitely are in a situation where we are potentially--the 
term Mr. Turner used was ``treading water,'' I think was the 
term you used, sir, which is kind of where we are at.
    Mr. Heinrich. So do I understand you to say, sort of, that 
this is sort of the wait and see year? We develop a grander 
vision of what the strategic context is and maybe adjust in the 
following budget year? Is that what you are----
    Mr. D'Agostino. Absolutely. I mean, I do think, you know, 
whether we call it a ``wait and see year'' or a ``treading 
water year,'' I mean, the focus was, you know--priority number 
one for me, because many of you are aware that this budget was 
developed kind of fairly quickly in the last days of January 
and into the month of February. So what we ended up doing is 
saying, the priority is, we are going to focus on not having 
any reductions in staff across the complex in the aggregate. 
Try to preserve as much as possible the people and the program 
while the Administration gets its hands around what it wants 
its nuclear security posture to be.
    And, you know, because it is--in fact, it still isn't done 
yet. We are developing that posture. And so my expectations--I 
mean, I have spent a lot of time in this program; I know a lot 
of the people, I know Keith Matheson quite--very well, out at 
Sandia, running the Z machine. My expectation is that in order 
to drive this program into the future that supports the visions 
on CTBT and Strategic Arms Reduction Treaty (START), that we 
absolutely have to have a fairly significant increase in the 
science and technology in this program in the out-years. It 
just can't happen any other way. We have to have support for 
facilities upgrades out into the future. It just can't happen 
any other way. We have to send the signal that this is a 
nuclear security program, not a nuclear weapons program, 
because in fact, that is exactly what it is. It is a nuclear 
security program, not a nuclear weapons program--not completely 
a nuclear weapons program.
    And those messages have to get sent out by the 
Administration in an integrated five-year program that will 
look different than--I didn't bring a budget book with me, but 
it will look different than what we have in front of us today. 
So it is a one-year program right now.
    Mr. Heinrich. Jumping on to sort of the next thing in 
response to that is the Readiness in Technical Base and 
Facilities accounts. And sort of given the 16 percent decrease 
in Operations of Facilities, 28.6 percent in Program Readiness 
from fiscal year 2009 levels, how are some of those things 
going to play into this broader picture that you are talking 
about? I mean, those seem to be--those are kind of bread and 
butter sustainment----
    Mr. D'Agostino. Right.
    Mr. Heinrich [continuing]. Accounts.
    Mr. D'Agostino. Yes. The Readiness in Technical Base and 
Facilities and Program Readiness accounts are accounts that 
fund what we call our fixed costs--in effect, you know, lights 
burning, you know, roads working, roofs maintained, and that 
kind of thing. In parallel with what we have right now, which 
is a fairly--like it was said earlier--flat-budget scenario for 
the Weapons Activities account, we are driving changes in the 
way we do business.
    Probably the best example--and I have got numerous 
examples--but the best example is what we called ``supply chain 
management center.'' Something we started about a year and a 
half ago, it is to centralize procurement of commodities-type 
products. Every laboratory, every production site needs paper, 
paper clips, it needs a variety of commodity-type products, and 
they were all being purchased separately, and we felt that 
there was an opportunity to leverage our purchasing--you know, 
operate as an integrated organization instead of eight--seven 
separate sites, and in fact, there is opportunity, and we took 
advantage of it, and we have demonstrated $32 million worth of 
savings. That is one example.
    Another example is doing the same type of concepts with 
replacing roofs across the concept, and we saved money there. 
So a lot of the pressure--the negative budget pressure--you see 
in those fixed-cost accounts are due to our driving our lab 
directors individually, and the enterprise as a whole, toward 
being more efficient.
    Just one last point and I will stop, and that is, we have--
about two years ago I chartered a group, and it is only 
contractor employees--lab--senior from each lab or production 
site--when we develop a Nuclear Security Enterprise Integration 
Council, and this integration council was set up so that I 
would put, potentially, operational efficiency pressure, and I 
say, ``You guys run this place. You are Management and 
Operations (M&O) contractors. You tell us what is a more 
efficient way to operate, and I would like to see specific 
results.''
    And that group meets, in fact, they met yesterday here in 
Washington, and they have a very well prioritized list of 
activities. In the essence of saving time, I would be happy to 
provide, if I could, to the committee examples of those types 
of projects and where they produce savings.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Heinrich. That would be helpful, I think. I wasn't 
surprised so much with the cuts as with the scale. You know 
28.6 percent is a lot of paper cuts and bruises.
    I am sure there is capacity there. I just thought--I mean, 
that is substantial. So I would be curious to look at some of 
those programs and see how they match up with the scale of the 
reductions that we are seeing.
    Mr. D'Agostino. Okay. Be glad to show you that, sir.
    Ms. Tauscher. Thank you.
    Mr. Podonsky, I wanted to go back to the one question I 
have. It is an issue that we discussed about a year ago. When 
HSS was established it was structured so that you were not 
responsible for any operational elements, with one exception: 
the DOE headquarters security. This exception, which gives your 
organization responsibilities for an operational unit, appears 
to represent what we considered, at the time, a conflict of 
interest.
    Last year, you agreed, and said that you were working with 
the past Administration to address the issue. But since then, I 
understand your office has conducted an oversight inspection of 
the security operations at the headquarters facilities, and we 
still think that is a conflict.
    Why don't you tell us where you think you are with this 
right now, and can you provide the subcommittee with an update 
on what you have done over the past year to address the concern 
we have?
    Mr. Podonsky. Yes, ma'am. Thank you for the question. And 
it is true, at the hearing that I testified last year that we 
talked about the inherent conflict for my office to be 
responsible for environment, safety, and health safeguards to 
security, cyber, emergency management, policy oversight 
enforcement, and then to have an operational arm; it has proven 
to be quite a challenge.
    We just had a vigorous inspection, as I mentioned, last 
year that we would conduct, and my operation did very poorly. 
And so I put myself on report and went to then-Secretary Bodman 
and talked about the corrective actions in the same way I would 
expect when I go to inspect any of my colleagues' to my right, 
here, operations.
    We did the corrective actions at the headquarters to make 
the improvements, but the Administration--the previous 
Administration at the time--did not want to make any wholesale 
changes because we were so close to the changeover with the 
upcoming election. Now, where we are, that we have all the 
corrective actions fixed, in place, we await the current 
Administration for what they are referring to as a resetting of 
the DOE organizational structure.
    So my recommendation will be to Secretary Chu and the 
Deputy Secretary designate that when they look at the 
restructuring of the Department, as they intend to do, my 
recommendation will be that even though we have taken every 
precaution to avoid any conflicts, the fact of the matter is 
that they exist. And quite honestly, I don't want to have to 
put myself on report again for poor performance.
    Ms. Tauscher. Well, we don't want you to either, so we are 
going to--I think that the subcommittee will write to Secretary 
Chu and we will ask exactly what the plan is to reset the 
organization and to take you out of that situation.
    Mr. Turner, do you have any further questions? I want to go 
to Mr. Thornberry.
    I am happy to go to Mr. Thornberry for five minutes.
    Mr. Thornberry. Thank you. And I apologize for being in and 
out during the testimony.
    Mr. D'Agostino, I know you said that you all are still 
digesting the commission report that came out last week, but as 
I have read that report and now I look at the future year 
budgets for Weapons Activities, seems to me the two things 
don't fit together. I mean, the Weapons Activities budgets go 
down, not even counting inflation under this budget, and it 
just seems to me, when you look at the challenges with people, 
facilities, the other things that were talked about in that 
report, this isn't all fitting together. Am I missing something 
here?
    Mr. D'Agostino. No, sir, you are not. They don't match up. 
Our focus, recognizing the report just recently came out--of 
course, I have been working this program for a number of 
years--and that what we have got, in essence, is inconsistency.
    In fact, you know, the report will inform--in fact, is 
informing--the Nuclear Posture Review groups that are meeting. 
I am one of those people that are on that group. The report 
helps me out, quite frankly, quite a bit in defining what I 
believe is the right path for the program.
    The out-year numbers for this program do not reflect what I 
think are important to do to maintain a stockpile, to do a 
CTBT, to take care of a variety of challenges we have coming 
forward. And, you know, granted--I mean, somewhere buried in 
the narrative of the actual President's budget submission, I do 
make it clear that what we are trying to do is first, do no 
harm and not reduce significantly the program between 2009 and 
2010; and second, set us up--you know, it is kind of like a--
getting yourself ready for that next pitch that has to happen, 
getting the program set up so that it can move out smartly, 
given a strategic direction.
    The report actually sets the right tone, in my view, of 
where programs need to go. It endorses things that the 
committee has looked at for a number of years now with respect 
to stockpile, so----
    Mr. Thornberry. Well, my concern, among others, is that if 
we have this idea we are going to negotiate further reduction 
with the Russians, that means we can spend less money, and--
when, in fact, that even puts greater necessity on making sure 
what the other things we do are done well, or else--and 
articulating that risk of not funding those other things well 
is something that does concern----
    Let me ask, on another topic: I know that you and Mr. 
Podonsky have, I believe, written a memo on the issue about 
whether the guard force should become federal employees or not. 
And my impression is that you are both in agreement that that 
is not a good idea. Could you briefly, each of you, tell me 
why?
    Mr. D'Agostino. I can start, and I would ask Glenn, maybe, 
to--because in essence there is a policy piece, and Glenn has 
that responsibility. My sense is, just as a program lead, that 
we can spend a lot of time and effort, I call it reorganizing, 
or making fairly significant strategic shifts. It has been my 
observation in the past in running programs that there is--the 
devil is in the details on many of these things--that the guard 
force may have a certain view that, ``hey, being a federal 
employee is a great thing because you get this, that, and the 
other,'' and actually there are some unintended consequences.
    So in my view, unless there is a hugely obvious benefit 
that seems to override a variety of things, reorganizing or 
restructuring are things that should only be done with very 
careful deliberation. I know Glenn has done the spade work on 
this, and I will ask you to follow up.
    Mr. Podonsky. If you will indulge me, Congressman, this 
actually stems with a conversation that started with former 
Secretary Spence Abraham, former Deputy Secretary Frank Blake, 
General John Gordon, myself, and Clay Sell was in on the 
conversation at one point, and what it was is, Secretary 
Abraham, at the time, said he wanted to take a look at how to 
improve security posture of the Department of Energy in a post-
9/11 environment. This was 2003.
    And I had put on the table the option of looking at 
federalization of the guard force. And I put it on the table 
for the Department to take a serious look to see whether or not 
security posture of the Department would be improved by 
federalizing the force. And there were a number of joint 
studies done by both contractors in the field, managers, staff, 
and our staff at headquarters, and the conclusion was that 
security posture would not be improved.
    And the guard force unions, who I work with closely, saw 
this as an opportunity, and rightfully so, to create a career 
path for themselves, so as they got older they had a place to 
go, because maybe they were not any longer in physical 
condition to meet the standards of a security officer. So the 
conclusion that Under Secretary D'Agostino and I came with is 
that the federalization was not the answer.
    Well, what we have done is I have started another group to 
evolve the guard unions across the complex to involve my policy 
people, my overseers, to find the alternatives that would meet 
the challenge of improving the Guard security for their own job 
security, and also meet the challenge that we originally had in 
2003 to improve the security posture.
    One of the things we did was come up with what we called a 
``security elite force,'' so that would help improve the 
security posture. But the federalization as a whole, our 
conclusion was that it would not improve the posture for the 
amount of money that would be spent to change the entire 
construct of the Department.
    Mr. Thornberry. Thank you.
    Ms. Tauscher. Thank you, Mr. Thornberry.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    Mr. Podonsky, I don't think there has been a hearing where 
you have been present where I have been here where I haven't 
said something about my concern for security, but for our 
facilities and our weapons, so I just wanted to turn to that. I 
appreciate your diligence and your commitment, but I remain 
concerned and I would appreciate your continued efforts to keep 
us informed of ways that we can close any gaps that may exist. 
I know you are transitioning from a Design Based Threat 
security policy to a Graded Security Protection policy, and 
should in the future learn more of that, and also ways in which 
we can make a difference, because, as I said in my opening 
statement, we do not have a margin of error in the issue of 
security. And Mr. D'Agostino and I have also had that 
conversation, so thank you for your efforts there.
    Ms. Tauscher. Thank you, Mr. Turner.
    We are going to go ahead and finish at 4:30, and I just 
wanted to see if Mr. Langevin or Mr. Heinrich had another round 
of questions.
    Mr. Langevin for five minutes?
    Mr. Langevin. Sure.
    Ms. Tauscher. Mr. Langevin for five minutes.
    Mr. Langevin. Thank you, Madam Chair.
    Going back on the stewardship program, if I could, one of 
the questions I wanted to get to was, would our ratification of 
a Comprehensive Test Ban Treaty change any of the current plans 
for the program? If so, could you describe how?
    Mr. D'Agostino. Sure. Certainly. Yes, it would change our 
plans. It would, in fact, reinforce the fact that we need to 
bring our science and technology infrastructure, if you will, 
which--people facilities, experimental tools--actually start 
using our tools in the way they were meant to be used. Mr. 
Heinrich talked about the--we are doing about 80 percent of 
what we could do on one shift on the Z machine; we would want 
to do, quite frankly, two shifts' worth of shots on Z to get 
that experimental data out.
    If ratification of CTBT comes forward as we expect, we will 
be putting forward a program that will fully utilize these 
machines. So it will be increased effort. That will present 
some technical challenges because, you know, we are now going 
to be shifting from a ``build the capability'' to actually 
``use the capability.'' and then the next step is analyze the 
results of that data and get ourselves down into this ability 
to do what has been termed ``predictive science,'' which is an 
art right now, and not quite yet at the science level. So----
    Mr. Langevin. I guess you kind of lost me. But why wouldn't 
you do that absent ratification of the treaty?
    Mr. D'Agostino. Well, what we are doing right now is, we 
would need to do that absent because right now we have to 
maintain that policy of no underground testing, but we are not 
getting--in other words, without the--the problem that we have 
had in the past, quite frankly, is this national consensus, you 
know, an agreement, in effect, between the Administration, the 
Executive Branch, the international community, and, you know, 
what I call nongovernmental organizations--that national 
consensus. And frankly, it goes to a global consensus in some 
respects, and the national consensus on our strategic posture.
    And not having that has made running this program very 
difficult. We have had greater than $600 million shifts, you 
know, as that program of record to submit up and gets debated 
in Congress, and whenever you have that kind of shift and you 
have those kind of deltas, it makes it very hard for the 
program to be successful. I think we have a real opportunity, 
frankly, to get to this national consensus. We are not quite 
there yet. I think we are on the cusp of it.
    I mean, there will be debates whether or not we took the 
stockpile size down too much or not enough, or whether our 
reserve capability on warheads is too big or too small, or 
whether we have too many scientists or engineers or not, and 
some people will debate that. But I go back to kind of the 
legwork that has happened here on this document, as it informs 
the Nuclear Posture Review, that will clearly demonstrate the 
need for reinvestment in our facilities and in our people and 
to fully utilize that.
    And I guess maybe I have been--I am going to call it 
stymied--in the past on getting these increases, but I see this 
as kind of like a running back. You know, a fullback--block 
fullback--in front, making sure that all issues are out on the 
table for us to debate, and then once the debaters are done 
then we move out, because frankly, the people, as we talked 
about earlier, are getting older; they are getting mixed 
signals. They are getting mixed signals. And they end up 
wondering, you know, ``What are we doing here?'' It strains 
budget, from that standpoint.
    Mr. Langevin. Before my time runs out, can you tell me--
look into Russia, what is NNSA doing to ensure that as it 
expands the scope of its nonproliferation programs, existing 
programs with Russia remain a cooperative endeavor, and the 
U.S.-Russia nonproliferation partnership continues to address 
our remaining work in Russia and other possible opportunities 
for nonproliferation cooperation?
    Mr. D'Agostino. We are doing a lot in that area, sir. Mr. 
Baker, who is here behind me, just came back recently from a 
trip to reinforce, talk to his counterparts. We have a whole 
series of deputy directors. And we are also--Tom, in the 
Russian and customs service and in the military, where we have 
ongoing problems, to do security upgrades, do vulnerability 
assessments, to do sustainability projects. We are identifying 
not only those--making sure that those partnerships are--
continue on, but we are looking at opportunities to develop new 
areas for work with Russia.
    I will give you some examples here on the research reactor 
conversion. Russia has a number of research reactors in country 
that have highly enriched uranium (HEU), so we are looking at a 
joint partnership where both U.S. and Russia have a domestic 
reactor conversion effort to take advantage of the fact that if 
we are going to have the rest of the world convert to research 
reactors from HEU to low enriched uranium (LEU), we ought to be 
doing the same thing.
    So in fact, I see expanded work with Russia out into the 
future, and I see our programs shifting a little bit toward not 
just the U.S. paying, but a cost-share approach. And we have 
examples of where Russia, in certain parts of our program, has 
picked up the load, quite frankly, on sustainability. Once we 
have done the upgrade, they have picked up the responsibility 
for doing the sustainability, or carrying it out for the 
future, and we get to check and see how they are doing. So I 
see a lot more work, sir, in that area.
    Mr. Langevin. Okay.
    Ms. Tauscher. Mr. Thornberry, do you have a second round?
    Mr. Thornberry. Madam Chair, may I follow up?
    I was a little confused in your testimony. At one point it 
says that the U.S. and Russia have reached agreement on 
disposition of excess plutonium; in another point, it kind of 
sounds to me like it is still in negotiations and expect to 
complete negotiations this summer.
    Mr. D'Agostino. Yes. We may have made it confusing, 
unfortunately. There is a joint technical statement where we 
have agreed in principle--I think it was in end of 2007 that--
where we basically said, we agree on the--this is the 34 metric 
tons question----
    Mr. Thornberry. Right.
    Mr. D'Agostino [continuing]. And we agreed in principle on 
how each country was going to do it, but what we needed to do 
was upgrade what is known as the Plutonium Disposition 
Management Agreement, or, Plutonium Management Disposition 
Agreement. That agreement is one of the elements of what Mr. 
Baker's trip was to work out the exact words that the two 
presidents can sign in July.
    And so there is the technical piece of the program, where 
everybody that actually does the work says, ``It is a done 
deal. We are ready to go.'' We want the two presidents to sign 
the agreement in July, and then that actually commits both 
countries, frankly, to now let us follow up and do it.
    Mr. Thornberry. Okay. And are we paying for their plutonium 
disposition?
    Mr. D'Agostino. The commitment on behalf of the United 
States is, if appropriated, $400 million. This is money that 
was appropriated in the past. I think about $200 million or so 
that was appropriated in the past, most of that was retracted 
last year. But we are only paying for a portion of it, quite 
frankly, because the plutonium--they are going to have to do a 
lot--put out a lot more of their own capital to do it, and they 
are planning on doing it via their fast reactor disposition 
programs.
    So the $400 million the U.S. would be committed to would 
help but would not take it all the way. And frankly, I am okay 
with that because, you know, Russia is a different country now 
than it was 10 years ago when the agreement was----
    Mr. Thornberry. We have been dealing with this for 10 
years, so that is why I have--so the $400 million is a cap----
    Mr. D'Agostino. The $400 million----
    Mr. Thornberry [continuing]. On how much we would pay?
    Mr. D'Agostino. The $400 million is the amount we would 
pay, yes, sir.
    Mr. Thornberry. Okay. Okay. Thank you.
    Thank you.
    Ms. Tauscher. Mr. Heinrich for five minutes.
    Mr. Heinrich. Thank you, Madam Chair.
    I want to go to the B61, which I think was touched on a 
little bit in the report. But even given the uncertainties in 
our overall strategic posture, it seems like some sort of Life 
Extension Program or refurbishment program for that should be a 
priority. How does that fit into the next year's budget?
    Mr. D'Agostino. The way it fits in is to finish--it does 
fit in the next year's budget, for one. Two is, our focus in 
next year's budget is to do--I will use this term--it is called 
a ``phase 2-A study,'' which is a cost, scope, and schedule 
study on exactly what we are going to do by when and how much 
is it going to cost.
    It is actually the completion of an effort we started in 
2009, and on the--you know, again, when the strategic posture 
review comes out--the Nuclear Posture Review comes out, I am 
sorry--I am hoping that it has enough definition with respect 
to the B61, because General Chilton and I believe that this 
warhead--you know, whether ultimately, 15 years from now, it 
goes away, it is not on the good path between zero and 15 
years. I mean, I don't--you know, we have to do work on that 
warhead.
    Mr. Heinrich. Right.
    Mr. D'Agostino. And so the question will be, okay, let us 
say it goes away in 15 or 20 years, then that helps inform the 
study to say, ``Well, let us just do enough work to get us 
through that time phase, period.'' That is why we need to do 
the study in 2010.
    Once the study is completed----
    Mr. Heinrich. That will be done this fiscal year?
    Mr. D'Agostino. It will be done into the next fiscal year, 
because what we are going to be looking at is, you know, 
whether we just do a nonnuclear replenishment--just change out 
those nonnuclear parts--or whether we actually have to get into 
the nuclear package itself because of aging of components and 
other things. And there is also the desire, I think, on the 
part--certainly on my part, and I believe on the part of the 
subcommittee and others--that where we can insert improved 
safety and security without substantially changing, that we 
ought to take advantage of that opportunity. And in fact, that 
is where Sandia comes in, is it provides the details there.
    Mr. Heinrich. Right. Thank you.
    Dr. Triay, I want to ask you a quick question. I don't know 
if you remember us meeting in Santa Fe a few years ago----
    Dr. Triay. Absolutely, sir.
    Mr. Heinrich [continuing]. But I wanted to ask what you are 
doing to address the natural resource damage issues at DOE and 
NNSA facilities like Los Alamos National Laboratory (LANL)?
    Dr. Triay. I have been working closely with NNSA on this 
particular issue, and the reason is that--matter, I feel that 
while the cleanup is going on, to the extent that we can 
address some of the issues, that ultimately we will come out of 
assessing the damages after the cleanup is done, we actually 
can do a lot better. So I firmly believe that we have to work--
NNSA and the Environmental Management program--need to work 
together to ensure that anything that can be identified while 
we are in the cleanup phase, that we work in partnership with 
the Tribal Nations, the state, so that we can get ahead of, 
ultimately, having to assess the damages at the end.
    So you have my commitment that, in my case, if confirmed, I 
will continue to work in a very close manner with NNSA on the 
Los Alamos issue.
    Mr. Heinrich. So you are saying you understand the 
advantage of a parallel track as opposed to a Rocky Flats 
situation where you do one and then try to figure out how you 
figure out the other one when you have changed the data and----
    Dr. Triay. Absolutely, sir. I definitely do understand 
that, and I am very committed to that approach.
    Mr. Heinrich. Great. Thank you.
    Ms. Tauscher. Thank you very much. We are about to be 
called for three votes--the last votes of the day.
    I want to thank our witnesses, Dr. Triay, Administrator 
D'Agostino, Mr. Podonsky, thank you very much, and the people 
behind you who do such great work for this country, and the 
people behind them, and the people behind them. [Laughter.]
    Thank you for your service. Thank you for informing the 
committee as well as you have, and we will look forward to 
talking to you again soon.
    Hearing is adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 13, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 13, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 13, 2009

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. HEINRICH

    Mr. D'Agostino. The Nuclear Security Enterprise--Integration 
Council (NSE-IC) is a team of senior weapons contractor managers from 
the eight NNSA sites established to work on difficult projects/
assignments that require more than one site to accomplish. The Council 
was chartered in August of 2006. The following are some of the 
accomplishments achieved during the last three years of operation:

    <bullet>  Successfully completed 90% of the Multi-site Targets 
identified by NNSA as critical mission essential milestones for the 
Stockpile Stewardship Program in fiscal year (FY) 2007, 100% in FY 2008 
and expect to complete 90% in FY 2009;

    <bullet>  Each year the council has identified initiatives that are 
not incentivized that enable additional collaboration and resultant 
improvements between sites. Some examples are:

        <all>  Establishing a ``Code Blue'' process across all sites to 
        enable forming teams to address/solve difficult problems 
        quickly;

        <all>  Performing a ``Macro-Baseline Benchmarking'' of each of 
        NNSA's site management and operations contractors to enable 
        identification of improvement opportunities at sites;

    <bullet>  During FY 2009, completed additional scope projects 
beyond those planned through increased efficiency of nearly $100M 
across the Nuclear Security Enterprise; and

    <bullet>  Chartered in FY 2009, the Nuclear Security Enterprise's 
Field Council, was built upon lessons learned from the NSE-IC to 
further enable changes/improvements. This Field Council has a chairman 
and the members are the eight NNSA Site Office Managers. These two 
councils have met several times to date and are jointly working to 
increase the overall operational efficiency and effectiveness of NNSA.

    [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 13, 2009

=======================================================================

      
          QUESTIONS SUBMITTED BY MS. TAUSCHER AND MR. LANGEVIN

    Ms. Tauscher and Mr. Langevin. How would you characterize your 
confidence in the safety, security and reliability of the United 
States' nuclear stockpile? Please describe any issues that might erode 
that confidence over time.
    Mr. D'Agostino.  Overall NNSA's confidence in the safety, security, 
and reliability of the stockpile is adequate, but faces challenges as 
mentioned in the Annual Assessments to the President from the National 
Laboratory Directors and Commander, USSTRATCOM. Most of the stockpile 
weapons have greatly exceeded their originally expected in-stockpile 
lifetimes of 20 years. NNSA applies knowledge gained through 
surveillance and weapon assessments to identify issues and judge the 
stockpile's ability to meet the mission without nuclear testing.
    Safety and security features of the weapons continue to meet their 
original designed requirements. However, technological advances and 
less stringent military requirements since the end of the cold war have 
created opportunities to introduce safety enhancements into the weapons 
such as those recommended by the Drell Commission. The DoD and NNSA 
continue to maintain our highest standards of procedural safeguard to 
supplement each weapon's particular safety features. Security of 
nuclear weapons is confronted with an ever-evolving threat and 
capabilities that ever-improving technologies offer potential 
adversaries. The DoD and NNSA continuously respond by upgrading our 
site, facility, and transportation safeguards to counter the potential 
threat capabilities. However, upgrading the internal weapon safety and 
security features requires redesign and production of certain weapon 
components. The most effective safety and security implementation can 
be achieved through a comprehensive redesign.
    Many of our nuclear weapons have small performance margins as a 
legacy of the Cold War drive to maximize yield and minimize weight. 
This weapon design margin degrades with time. Furthermore, uncertainty 
in the reliability of components grows with time. This combination 
reduces our confidence in stockpile performance over time and can 
impose performance limitations. The DoD and NNSA work together to 
procedurally alleviate, to the extent possible, any resulting 
performance limitations until a warhead condition can be corrected by a 
weapon repair, alteration, or refurbishment. NNSA has put greater 
emphasis on the evaluation of aging-related degradation to performance 
margins; however, there remain many investment opportunities for new 
diagnostic capabilities to identify, characterize, and monitor the 
aging trends. Surveillance is essential to prevent uncertainty from 
eroding our ability to remain confident in the assessed health of the 
stockpile today and our ability to predict issues that would prevent a 
positive assessment in the future.
    Ms. Tauscher and Mr. Langevin. What steps does NNSA plan to pursue 
to maintain the safety, security and reliability of current stockpile?
    Mr. D'Agostino. The change in the global security environment and 
the manner in which nuclear weapons fulfill their deterrence role 
promotes introducing enhanced weapons safety, security, and reliability 
not possible during the Cold-War era. Rather than simply duplicate the 
manufacturing of the weapon as it was originally designed in the 1970s 
and 1980s, NNSA will seek to build a consensus with national leadership 
that investments in nuclear weapon safety and surety enhancements are 
in the best interests of national policy and the public. The 2009 
Nuclear Posture Review (NPR) will provide the most immediate 
opportunity to reflect this consensus. The weapons program budgets for 
that portion of the stockpile recommended for retention, which should 
also reflect this consensus. In addition, NNSA will continuously assess 
the health of the stockpile and identify critical performance 
parameters and knowledge gaps that require resolution. NNSA must make 
commensurate investments in science, engineering, and manufacturing to 
better understand these parameters and gaps and to implement design 
solutions when aging issues arise--ultimately producing the tools and 
capabilities to maintain the stockpile as it ages.
    As long as the United States requires a nuclear deterrent, we must 
maintain the capabilities required to sustain our deterrent. We need to 
recruit and sustain the skilled scientists, engineers, and technicians 
required to solve the key challenges in science-based stewardship, and 
we need to maintain the stockpile in a manner that ensures our ability 
to support the deterrent without testing. Life extension programs 
(LEPs) ensure confidence in long-term stockpile effectiveness 
(reliability and performance) and provide opportunities to increase 
weapon margin and incorporate enhanced safety and security features 
into warheads. Life extension activities will not create new military 
capabilities, do not require nuclear testing, do not require new 
production of fissile materials, and do not add impetus to others' 
proliferation. Our ability to enhance the margin, safety, and security 
of the stockpile, however, is limited by restricting LEP work to only 
warhead refurbishment. LEPs should be considered on a case-by-case 
basis as recommended by the Congressional Commission on the Strategic 
Posture of the United States. Effective stockpile management could 
allow policy makers to further reduce the size of the stockpile, 
particularly those warheads maintained in reserve as a hedge against 
risk. We must base each LEP on technical considerations regarding the 
best approach to meet stated objectives including assured long-term 
reliability and enhancing America's nuclear security. Furthermore, to 
meet these objectives, NNSA must recapitalize the infrastructure to 
provide modern, safe, secure, and efficient facilities.
    Ms. Tauscher and Mr. Langevin. Are there limits on Stockpile Life 
Extension Programs in terms of their scope, and ability to meet 
military requirements? Are these technical, operational, regulatory, 
statutory, or a combination? Please give examples.
    Mr. D'Agostino. Life extension programs (LEPs) ensure confidence in 
long-term stockpile effectiveness (reliability and performance) and 
provide opportunities to increase weapon margin and incorporate 
enhanced safety and security features into warheads. Life extension 
activities will not create new military capabilities, do not require 
nuclear testing, do not require new production of fissile materials, 
and do not add impetus to others' proliferation. Our ability to enhance 
the margin, safety, and security of the stockpile is limited by 
restricting LEP work to only warhead refurbishment.
    The current approach to legacy stockpile sustainment through 
refurbishment is focused on minimum excursions from the original design 
which imposes technical limits on what can be done to the weapons 
during refurbishment. A fundamental objective of the refurbishment 
approach is to meet the original military requirements that were 
established with the DoD. Most of the legacy warheads were highly 
optimized systems, trading margin for more yield and reduced weight, 
and all were validated by nuclear testing.
    Refurbishments are becoming increasingly more difficult and costly 
in order to replicate materials and outdated or non-operational 
processes and technologies that were used to meet original warhead 
specifications. In some instances, regulatory limits affect the LEP 
approach. Some materials or processes have been eliminated because they 
were hazardous and are not available in industry due to increased 
regulatory constraints and costs. Each refurbishment introduces changes 
that take the designs further from the tested configurations, with 
increases in uncertainty. As these designs continue to evolve, NNSA's 
ability to ensure confidence in the legacy stockpile's safety and 
reliability over the long-term will depend even more on a robust and 
successful stockpile stewardship program and a viable peer-review 
process.
    Some specific challenges include eliminating the use of beryllium 
due to health and environmental concerns and moving toward the use of 
insensitive high explosives or other safety enhancements. These provide 
significant technical challenges that will require considerable weapon 
redesign. Furthermore, replacing archaic electronics and other sunset 
technologies will inherently improve performance for certain 
components. Opponents of the nuclear weapons program have characterized 
these changes, which are essential to sustaining nuclear security, as 
new military capability even though the weapon continues to fulfill the 
same mission need. This further highlights the need for a national 
consensus on maintaining credible deterrent and improving nuclear 
security as long as nuclear weapons exist.
    Ms. Tauscher and Mr. Langevin. The NNSA has said it will rely on 
initiatives such as facility and staffing reduction and new business 
practices to pay for transformation of the existing nuclear security 
complex. In its final report, the Congressional Commission on the 
Strategic Posture of the United States expressed doubt that complex 
transformation could be funded without budget increases. The commission 
further argued that additional staffing reductions in the laboratories 
could erode the core competencies of the labs and the complex overall.
    To what extent do you believe that cost savings from facility and 
staffing reduction, business process improvements, and materials 
consolidation can help pay for complex modernization? If such 
reductions will pay only for part of modernization, from where will 
NNSA draw the remainder of the required funds?
    Mr. D'Agostino. The NNSA originally planned to implement 
transformation within our budget projections, assuming that savings 
from early transformation actions (e.g., supply chain management 
improvements, special nuclear material (SNM) consolidation, non-nuclear 
production transformation at our Kansas City Plant, and test facility 
consolidation) were available to be reinvested. This approach included 
paying for transformation through a combination of the following:

    <bullet>  Infrastructure savings through major footprint 
reductions, replacement of buildings that are long past their economic 
lifetimes, and updated cost-sharing models for work-for-others 
customers;

    <bullet>  Reduced overhead costs through contract reforms, improved 
risk management strategies, greater business practice uniformity, 
improvements in product assurance processes, and commodity purchase 
savings through a supply chain management center; and,

    <bullet>  Reductions in staff supporting weapons activities through 
attrition and possibly through reassignment to other national security 
missions.

    The Congressional Commission on the Strategic Posture articulates 
the current complex transformation funding condition in their report. 
The report states, ``The physical infrastructure is in serious need of 
transformation and the National Nuclear Security Administration (NNSA) 
has a reasonable plan to do so but lacks the needed funding.'' Due to 
continued flat budgets (20% loss of buying power since 2005).
    Ms. Tauscher and Mr. Langevin. The NNSA has said it will rely on 
initiatives such as facility and staffing reductions and new business 
practices to pay for transformation of the existing nuclear security 
complex. In its final report, the Congressional Commission on the 
Strategic Posture of the United States expressed doubt that complex 
transformation could be funded without budget increases. The commission 
further argued that additional staffing reductions in the laboratories 
could erode the core competencies of the labs and the complex overall.
    To what extent are the design specifications for the Chemistry and 
Metallurgy Research Replacement (CMRR) facility and the Uranium 
Processing Facility (UPF) facility dependent on the size of the nuclear 
weapons stockpile?
    Mr. D'Agostino. The CMRR and UPF facilities are designed to house 
the minimum equipment necessary to perform plutonium and uranium 
processes. Both facilities are ``capability based designs''. The size 
of the facilities and the amount of equipment is driven by the number 
of unique processing steps, operations and missions required, not by 
the size of the nuclear weapons stockpile. The same tools and equipment 
needed to make a single CSA in UPF, for example, could be used to make 
up to the planned number of CSAs per year and meet the non-production 
missions assigned to UPF. For CMRR, the same process equipment provides 
the scientific support functions for fabricating pits at the rate 
specified in the requirements for the facility. For both facilities, 
any reduction in this equipment would disable the ability to conduct 
some or all of the missions. CMRR and UPF also support other defense 
missions, such as weapons surveillance, certification, and quality 
assurance as well as non-weapons programs such as providing feedstock 
for making naval fuel and for supporting disassembly and disposition of 
highly enriched uranium for non-proliferation missions.
    Ms. Tauscher and Mr. Langevin. The National Defense Authorization 
Act for Fiscal Year 2008 requires the GAO and then the NNSA to examine 
alternatives for managing protective forces at all NNSA and Department 
sites with special nuclear material. The committee understands that the 
NNSA has concluded that federalizing protective forces is not 
desirable.
    What steps does the NNSA plan to take to improve and make more 
consistent the management of protective forces throughout the nuclear 
security complex?
    Mr. D'Agostino. On March 31, 2009, the Office of Health, Safety and 
Security (HSS) commissioned a study to examine realistic and reasonable 
options for improving the career opportunities and retirement prospects 
of protective force members while maintaining, within current and 
anticipated budgetary constraints, a robust and effective security 
posture. The Protective Force Career Options Initiative Study Group 
consisted of senior representatives from HSS, the Office of Defense 
Nuclear Security (DNS), and other Departmental organizations. The goal 
of this group was to find ways to overcome problems that prevent 
protective force members from working to a normal retirement age, and 
accruing reasonable retirement benefits. The study identified 29 
recommendations for consideration that the Department is currently 
evaluating. These recommendations addressed issues ranging from the 
classification of Security Police Officers (as ``offensive'' or 
``defensive'' combatants), through the implementation of current 
physical and medical requirements, to proposals for a large-scale 
revamping of the retirement structure for both disability and age-
related retirements. The recommendations included a number of measures 
aimed at increasing the employment options available for protective 
force members, who through age or injury, are confronted by a premature 
end to their protective force careers. The study also addressed a 
variety of ``quality of life'' issues for protective force members, 
including arrest authority, uniforms, and equipment. The first 14 
recommendations were viewed by the Study Group as being appropriate to 
existing budgets and structures, and the last 15 will require 
additional resources, change in governance, or both. A central theme 
emerged from the study: the expectations placed upon protective force 
personnel should be clearly related to job requirements, and wherever 
demands are placed upon an individual's tactical skills and physical 
capabilities, those demands should be matched by training opportunities 
sufficient to support the maintenance of those capabilities. The 
anticipated contribution of these recommendations will improve the 
longevity and career potential of individual protective force members 
and enhance the potential contribution to the Department and its 
programs. Every positive step toward improving the career environment 
of protective force members improves morale; and contributes to making 
our forces more efficient and effective. By creating incentives for 
individuals to enter a protective force career and then remain in the 
Department's security community for a lifetime of service, the 
Department minimizes the significant costs associated with hiring, 
vetting, and training protective force members.
    Additionally, DNS initiated a Zero-Based Security Review (ZBSR) of 
the National Nuclear Security Administration's (NNSA) physical security 
and management oversight programs, in partnership with HSS. The pilot 
effort of this review was conducted from July 7 through July 24, 2009, 
at the Los Alamos National Laboratory. The purpose of the ZBSR is to 
determine how NNSA meets its security obligations, with an emphasis on 
improving cost-efficiency while simultaneously maintaining an effective 
security posture that incorporates sound principles of risk management. 
The protective force portion of the ZBSR focuses on improving the 
implementation of Federal management and contractor oversight 
requirements. It also focuses on developing a solid methodology for 
driving cost and activity transparency, cross-site consistency, and 
comparability among the diverse sites throughout the Nuclear Security 
Enterprise (NSE) that have similar protection missions. This will lead 
to increased consistency and more effective management of protective 
force operations, as well as more effective allocation of the limited 
budgetary resources available to the safeguards and security (S&S) 
program. By balancing funding with performance expectations, DNS will 
improve the consistency, effectiveness, and efficiency of its security 
program in general, and within the protective force program in 
particular. The result will be a set of recommendations to improve the 
quality of oversight management functions and/or to realign oversight 
activities to achieve better balance of Federal responsibilities and 
contractor authority for execution of the NNSA site security program. 
Additionally, DNS will develop supplemental guidance to assist NNSA 
sites in implementing S&S directives in a cost-efficient and effective 
manner.
    DNS is also pursuing alternative ways to enhance and improve 
protective force operational efficiency and effectiveness, including:

    <bullet>  Enterprise-wide standardization of select S&S equipment

    <bullet>  Establishing a common sourcing and procurement mechanism 
to acquire protective force items

    NNSA is utilizing the Kansas City Plant's Supply Chain Management 
Center (SCMC), operated by Honeywell FM&T, which is a strategic 
sourcing organization that leverages NNSA's purchasing power across its 
contractor sites to obtain reduced pricing, better delivery, increased 
quality, and improved service. The objective of the SCMC is to 
transform the Management and Operating contractors' acquisition process 
to a strategically integrated function that ensures maximum value for 
every acquisition and will assist in protective force equipment 
standardization throughout the NSE.
    Ms. Tauscher and Mr. Langevin. The FY 2008 NDAA also directed NNSA 
to conduct an assessment of the physical and cyber security risks posed 
to the nuclear weapons complex and the security technologies employed 
against those threats, and prepare a report identifying the manner in 
which it prioritizes investments in physical and cyber security of the 
weapons complex. The report would be included in the annual Future 
Years Nuclear Security Plan (FYNSP).
    Is the NNSA working on this assessment and report?
    Mr. D'Agostino. National Nuclear Security Administration (NNSA) has 
completed a Physical Security Technology Management Plan that is in 
final coordination with DOE's Office of Health, Safety and Security 
(HSS). This plan was developed to address the physical security portion 
of the NDAA amendment. It describes the defined processes currently 
used by NNSA to identify, deploy, and sustain physical security 
technologies, along with supporting rationale for the physical security 
technology-related budget requests in the FYNSP submittal to Congress. 
The plan identifies existing physical security technologies currently 
deployed at NNSA sites; describes the prioritization process used by 
NNSA sites to request new or replacement technologies; and specifies 
the funding strategy to address the requests.
    The Cyber Security Technology Management Plan has been completed 
and is currently under review by NNSA leadership, HSS, and the DOE 
Chief, Information Officer. The plan was developed to address the cyber 
security section of the FY 2009 NDAA amendment. The content of the plan 
provides an overview of the current processes for the deployment and 
sustainment of cyber security technologies. The plan also provides 
information on future program technology enhancements which are 
requested as part of the FYNSP submittal to Congress. The plan covers 
existing and future cyber technologies, the prioritization of processes 
and procedures used by NNSA sites for the development, and enhancement 
of technologies and the funding strategy to address the requests.
    Ms. Tauscher and Mr. Langevin. What are NNSA's highest 
nonproliferation priorities? What are the primary areas of progress and 
the main challenges facing NNSA nonproliferation efforts?
    Mr. D'Agostino. What are our highest priorities? The overarching 
mission of NNSA's Office of Defense Nuclear Nonproliferation is to 
prevent the proliferation or use of weapons of mass destruction (WMD) 
including the necessary materials, technology and expertise. NNSA's 
comprehensive nonproliferation programs help to deny unauthorized 
access to fissile materials and nuclear weapons technology. Specific 
efforts include ensuring adequate nuclear material control and 
accounting, and physical protection, at nuclear sites worldwide, 
strengthening international safeguards and tightening controls on 
international transfers, and programs for removing, dispositioning, and 
monitoring excess nuclear materials.
    We have made much progress meeting these priorities through the 
cooperative partnerships that NNSA has developed with over 130 country 
partners across the globe that work in 19 specialized nuclear security 
activities. We have completed material protection, control and 
accounting upgrades at 93% of Russian nuclear material and warhead 
sites of concern; converted or shutdown 64 reactors in 32 countries 
from the use of highly enriched uranium to low enriched uranium; and 
returned over 910 kgs of Russian-origin nuclear material and over 1,215 
kgs of U.S.-origin nuclear materials; and secured vulnerable nuclear 
and radiological materials at over 570 buildings worldwide.
    A primary challenge now will be ensuring the necessary resources, 
staff, and international partnerships required to help implement the 
President's nonproliferation strategy, including securing all 
vulnerable nuclear materials worldwide within four years, as outlined 
in the President's April 5, 2009 speech in Prague.
    Ms. Tauscher and Mr. Langevin. NNSA plans for fissile materials 
disposition have slowed in recent years, first as a liability dispute 
between the U.S. and Russia delayed work, and later as Congress 
expressed reservations about proceeding with construction of the U.S. 
MOX Fuel Fabrication Facility at the Savannah River Site. Most 
recently, the FY 2008 Consolidated Appropriations Act reduced funding 
for the MOX facility and transferred funding for the facility from 
NNSA's Defense Nuclear Nonproliferation program to the Office of 
Nuclear Energy. However, the FY 2010 budget request restores funding 
for the MOX facility and reflects a transfer of all funding for the 
facility back to Defense Nuclear Nonproliferation. What is the current 
status of construction of the MOX facility and what is the timeline for 
completion?
    Mr. D'Agostino. Overall the project is 35% complete and 
construction is 18% complete. Design, procurement and construction 
activities are proceeding on schedule and within budget. Eight of the 
seventeen auxiliary buildings needed to support construction and 
operation of the MOX facility have been finished, including the 
recently completed MOX Administration Building. At the MOX Process 
Building, more than 53,000 cubic yards of reinforced concrete, 50,000 
cubic yards of unreinforced concrete, and 11,000 tons of rebar have 
been installed. Operations are scheduled to begin at the MOX facility 
in 2016.
    Ms. Tauscher and Mr. Langevin. What is the status of outstanding 
issues with Russia relating to the Russian Surplus Fissile Materials 
Disposition program, and what are the plans to move the program forward 
in a manner that is consistent with the program's nonproliferation 
objectives?
    Mr. D'Agostino. The United States and Russia reached agreement in 
principle on the text of a Protocol to amend the 2000 Plutonium 
Management and Disposition Agreement (PMDA). While this would update 
the PMDA for both sides' programs, the major change is that Russia's 
program will now be entirely (instead of partially) based on the use of 
``fast'' reactors. This is the only program consistent with Russia's 
nuclear energy strategy, and the amendment accordingly adds appropriate 
nonproliferation conditions (e.g., that the BN-800 is operated as a 
plutonium burner and the plutonium breeding blanket is removed from the 
BN-600). The text of the Protocol is currently being confirmed and 
reviewed by both governments. No significant substantive issues have 
been raised to date, and both sides are seeking to complete approval 
for signature early this fall.
    Ms. Tauscher and Mr. Langevin. In recent years, the committee has 
emphasized its strong concern with the use of fast reactors under the 
Russian Surplus Fissile Materials Disposition program and has conveyed 
its expectation that NNSA pursue a disposition path for Russia's 
surplus weapons-grade plutonium which ensures that any reactors used 
under the program do not produce plutonium and include necessary 
monitoring and inspection controls. What is the status of NNSA's 
efforts in this regard?
    Mr. D'Agostino. As part of the agreement in principle on the text 
of a Protocol to amend the 2000 Plutonium Management and Disposition 
Agreement (PMDA), Russia will dispose of all of its surplus weapon-
grade plutonium in fast reactors with certain nonproliferation 
conditions. These conditions include: the removal of the plutonium 
breeding blanket in the BN-600 fast reactor; the operation of the BN-
800 fast reactor with a breeding ratio of less than one and; 
restrictions on reprocessing disposed plutonium and prohibition on 
creation of new stockpiles of separated weapons-grade plutonium from 
any other materials that will be irradiated in the reactors that will 
be used for disposition. With regard to monitoring and inspections 
(M&I), the United States and Russia have agreed in principle on the key 
elements of a PMDA M&I regime. Among other things, the M&I regime will 
confirm that each country is disposing of 34 metric tons (MT) of 
weapon-grade plutonium and that none of the 34 MT is being reprocessed 
during the disposition period or thereafter unless under agreed 
international monitoring. Once the M&I key elements have been approved 
by the governments, U.S. and Russian experts will begin consultations 
with the International Atomic Energy Agency about its willingness to 
participate in such a regime.
    Ms. Tauscher and Mr. Langevin. In recent years, the committee has 
conducted vigorous oversight of the Global Initiatives for 
Proliferation Prevention (GIPP) program. The GIPP program's engagement 
activities with former WMD scientists clearly serve important U.S. 
nonproliferation interests by helping to impede the transfer of WMD 
expertise and know-how to states of concern or terrorist entities. But 
the program has also been criticized in past years for contributing to 
national security risks involving Iran. In response, NNSA reports that 
it has taken various actions to strengthen the management, 
implementation and oversight of the program. Please elaborate on these 
recent actions.
    Mr. D'Agostino. As set forth in former Secretary Samuel Bodman's 
letter of October 2, 2008, DOE/NNSA conducted a thorough review of all 
project payments since GIPP's inception in 1994 and determined that the 
program has operated in conformance with U.S. law and policy and that 
there is no basis for the assertion that it has contributed to national 
security risks involving Iran. Furthermore, new management controls and 
new and strengthened interagency review procedures are now in place.
    In direct response to concerns raised by Congress, the U.S. 
interagency established a committee to review nuclear and missile 
technology-related scientist engagement proposals and projects under 
the guidance of the National Security Council. Chaired by the 
Department of State, the committee includes representatives of the 
Departments of Energy and Defense as well as the intelligence 
community. The committee establishes a unified policy for U.S. 
scientist engagement activities and is intended to prevent any work 
from being funded that is inconsistent with U.S. policy.
    With headquarters and national laboratory oversight, GIPP assesses 
each project for proliferation potential and monitors projects 
throughout their lifecycle in order to maintain project and program 
integrity. Moreover, the program has hired an additional national 
laboratory specialist specifically to enhance the review process for 
participating scientists and to improve documentation of the reviews.
    As the GIPP Report to Congress required by Section 3116 of the 
National Defense Authorization Act for Fiscal Year 2009 details, GIPP 
has refined its overall programmatic approach to: (1) focus on 
scientists at facilities rated as high priority, based on an 
interagency assessment of proliferation risk; (2) develop multiple 
avenues for scientist engagement, such as industry partnerships that 
foster sustainability and leverage private sector resources as well as 
cooperative research and development programs and training efforts, and 
(3) pursue cost-sharing activities for new projects in Russia. GIPP is 
also pursuing potential cost-sharing opportunities with Ukraine, 
Georgia and Kyrgyzstan for projects on nonproliferation nuclear 
forensics.
    Ms. Tauscher and Mr. Langevin. This committee has expressed its 
concerns regarding the proliferation risks associated with the NNSA's 
Global Nuclear Energy Partnership, or GNEP. What is the current status 
of this program?
    Mr. D'Agostino. DOE is no longer pursuing a domestic GNEP program 
that includes consideration of near-term demonstrations and GNEP 
facility construction. We have restructured GNEP-related research and 
development (R&D) work into a long-term, science-based R&D program 
within the Advanced Fuel Cycle Initiative. And, for FY 2010 we are 
proposing to incorporate this R&D under the Fuel Cycle R&D program.
    The United States continues to support the objectives of the 
international component of GNEP, which is comprised of 25 member 
countries and is dedicated to the use of civil nuclear energy in ways 
that advance safety, security and nonproliferation. The Department 
continues to participate in the GNEP international meetings while the 
subject of how best to achieve GNEP-international objectives undergoes 
interagency review. We believe that proliferation issues should be a 
priority in any discussions about the expanded use of civil nuclear 
energy and, in particular, in discussions that relate to development, 
deployment and operation of advanced fuel cycle technologies. Thus, the 
Department remains engaged in international meetings and activities 
that focus on developing strategies to ensure reliable nuclear fuel 
services and to provide management options for spent fuel in a manner 
that minimizes proliferation concerns.
    Ms. Tauscher and Mr. Langevin. How much more does NNSA need to do 
to secure and reduce all known and unsecured weapons-grade nuclear and 
radiological material around the world, and what is the cost of the 
remaining effort in this area? Please also submit something for the 
record on this in classified form if necessary.
    Mr. D'Agostino. Global Threat Reduction Initiative (GTRI) has made 
great strides in its threat reduction activities and continues to focus 
attention on locking down or removing vulnerable nuclear and 
radiological materials as quickly as possible. To this end, GTRI is 
working to:

    <bullet>  convert or shut down 200 research reactors by 2020 (32% 
completed to date--57 converted and 7 shut down)

    <bullet>  remove 4610 kilograms of highly enriched uranium (HEU) by 
2016 (50% completed to date--2,300 kilograms of HEU removed to date); 
and

    <bullet>  complete security upgrades for 3,950 buildings with 
vulnerable nuclear and radiological material by 2019 (14% completed to 
date--573 high-priority nuclear and radiological buildings)

    An additional $126.5 million above the current Future-Years Nuclear 
Security Program (FYNSP) would allow acceleration of removal efforts 
and support the President's goal to secure all vulnerable nuclear 
materials around the world within four years.
    The MPC&A Program has completed upgrades at all 73 Russian nuclear 
warhead sites, and has completed upgrades at 87% of buildings 
containing nuclear material in Russia and in several former Soviet 
states. We expect to complete upgrades to the remaining buildings by 
the end of 2012. The costs for the planned work are reflected in our 
out-year budget profile. Additional upgrade needs may arise should gaps 
in the protection strategies be identified or if new areas of 
cooperation are proposed by the Russian side. Cost estimates would be 
formulated subsequent to these circumstances.
    The MPC&A Program has limited cooperation with countries outside of 
the former Soviet Union. Since 2004, we have had a series of exchanges 
with China on best practices for securing nuclear material. The MPC&A 
Program is pursuing cooperation with India, but efforts to engage the 
Government of India on this subject have generated little interest to 
date. Given the uncertainty over whether cooperation will occur and its 
scope, it is very difficult to estimate the costs at this time.
    Canada is contributing to this effort by providing resources for 
secure transportation of nuclear materials in Russia. Germany and Great 
Britain are also working with Russia on physical protection of nuclear 
material at select sites. Finally, Russia is contributing directly to 
this effort by sharing the cost of securing their nuclear sites and 
committing to sustain those upgrades for the long term.
    Ms. Tauscher and Mr. Langevin. What is NNSA doing to expand and 
strengthen the Global Threat Reduction Initiative (GTRI) and the 
International Nuclear Materials Protection & Cooperation (MPC&A) 
programs?
    Mr. D'Agostino. NNSA is accelerating work where possible and 
reaching out to new and existing international partners.
    GTRI is accelerating the removal and disposition of spent HEU fuel 
in cases where there is no other reasonable disposition pathway. 
Approval of a Revised Record of Decision will allow GTRI to return up 
to 1,000 kilograms of HEU spent fuel not currently covered by other 
GTRI removal programs.
    In addition, GTRI has enhanced its ability to accelerate nuclear 
material removal by expanding its methods of transporting Russian-
origin HEU spent nuclear fuel by air. Removal can now be accomplished 
by using a combination of air, land, and sea transport.
    The MPC&A Program has completed upgrades at approximately 80% of 
sites in Russia containing vulnerable weapons-grade nuclear material 
and at 12 sites in seven other former Soviet states. Additional 
upgrades are underway or planned at a number of sites that improve 
security further and address the evolving threat environment. 
Additionally, the program continues to focus on ensuring that these 
security upgrades will be sustained in the long-term through increased 
cooperation on nuclear security training, encouraging effective nuclear 
security culture, continuing education and regulatory development.
    To address concerns about the security of weapons-grade nuclear 
material in other parts of the world, the MPC&A Program has expanded 
its engagement to include other declared and undeclared nuclear weapons 
states on nuclear security best practices. Since 2004, the MPC&A 
Program has cooperated with China to discuss nuclear security best 
practices at civilian nuclear facilities to provide a first line of 
defense against nuclear material theft and diversion. The MPC&A Program 
is also pursuing MPC&A cooperation with India, but attempts to engage 
on this subject have thus far generated little interest from the 
Government of India.
    Ms. Tauscher and Mr. Langevin. The Nonproliferation and 
International Security (NIS) program offers opportunities for robust 
activity on major current WMD proliferation concerns, including: 
activities to address proliferation concerns in Iran; engagement on 
nonproliferation with Russia, China, India and other states; inter-
agency participation in the Proliferation Security Initiative (PSI); 
assistance to the International Atomic Energy Agency (IAEA); 
cooperation on international safeguards and export controls in South 
Asia and the Middle East; efforts to strengthen U.S. commitments to 
international agreements and regimes; and the establishment of a 
contingency fund for opportunities to prevent WMD proliferation and 
terrorism that may arise. What is NNSA doing to expand and strengthen 
this critical program?
    Mr. D'Agostino. The President's Prague speech outlined three key 
arms control and nonproliferation objectives: (1) a world free of 
nuclear weapons; (2) strengthening the Nuclear Nonproliferation Treaty; 
and (3) ensuring that terrorists are denied the materials, technology, 
and expertise required to build a nuclear device. The NIS program is 
making critical contributions to each of these areas:
    NIS is directly involved in the negotiation of the START follow-on 
treaty as it will be in talks on a verifiable Fissile Material Cutoff 
Treaty. We also are supporting Administration efforts to achieve U.S. 
ratification of the Comprehensive Nuclear Test Ban Treaty (CTBT) by 
ensuring a safe, secure and reliable nuclear weapons stockpile in the 
absence of testing and supporting the elements necessary to monitor 
compliance with the treaty.

    <bullet>  NIS is working to develop mechanisms to provide reliable 
access to nuclear fuel as a way to allow countries to benefit from the 
peaceful uses of nuclear energy without increasing the risks of nuclear 
proliferation associated with the spread of enrichment and reprocessing 
technologies.

    <bullet>  NIS is responsible for implementing a variety of programs 
that work in concert to reduce the threat of terrorists obtaining the 
materials, technologies or know-how necessary to develop nuclear 
weapons:

        <all>  NIS provides technical assessments of Iran's nuclear 
        capabilities, supports interdiction efforts by reviewing 
        foreign procurements and maintaining ``watch lists'' of 
        sensitive items, supports public diplomacy efforts through 
        targeted briefings, and develops tools and methods to 
        strengthen international safeguards.

        <all>  NIS launched the Next Generation Safeguards Initiative 
        (NGSI) in 2008 to develop the policies, concepts, technologies, 
        expertise, and international infrastructure necessary to 
        sustain the international safeguards system as it evolves to 
        meet new challenges over the next 25 years.

        <all>  NIS is working within the Nuclear Suppliers Group (NSG) 
        to strengthen its guidelines for transfers of enrichment and 
        reprocessing (ENR) technologies based on a strong, criteria-
        based approach that would only allow transfers to states with 
        impeccable nonproliferation credentials.

        <all>  NIS contributes technical expertise and reach back 
        capabilities both to Proliferation Security Initiative (PSI) 
        exercises and to possible interdiction cases.

        <all>  NIS supports the IAEA Office of Nuclear Security by 
        providing physical protection training and guidance development 
        for the physical protection of nuclear material and facilities 
        worldwide. NIS is leading the USG efforts supporting revision 
        of IAEA INFCIRC/225/Rev.4.

        <all>  The NIS International Nonproliferation Export Control 
        Program recently initiated new engagements with 10 countries 
        and 4 international organizations to promote improved export 
        control implementation, including the first-ever region-wide 
        effort to support implementation of UN Security Council 
        Resolution 1540 priorities on a regional basis.

        <all>  The International Nuclear Safeguards Engagement Program 
        (INSEP) partners with approximately 20 countries globally, as 
        well as with regional organizations such as the Brazilian-
        Argentine Agency for Accounting and Control of Nuclear Material 
        (ABACC) and the European Atomic Energy Community (EURATOM) on 
        (1) civilian nuclear infrastructure arrangements that emphasize 
        safeguards and other nuclear security and nonproliferation 
        obligations of a nuclear aspirant and (2) cooperative 
        activities intended to strengthen the international safeguards 
        system. In 2010, the program plans to initiate safeguards 
        cooperation discussions with the Russian Federation, 
        Kazakhstan, and South Africa, among others.

    Ms. Tauscher and Mr. Langevin. What is the status of NNSA's 
contributions to dismantlement efforts in North Korea given the pause 
in Six-Party Talks? What specifically is NNSA doing to prepare for 
dismantlement and verification activities?
    Mr. D'Agostino. Despite the current pause in the Six-Party Talks, 
DOE/NNSA continues to contribute to the USG process to evaluate future 
dismantlement and verification activities in North Korea. DOE/NNSA 
provides technically informed policy advice to USG decision makers in 
terms of the feasibility and appropriateness of various 
denuclearization options under consideration.
    DOE/NNSA also is continuing to develop tools and technologies and 
plans and assessments for the verifiable denuclearization of the Korean 
Peninsula not only for the verification of past DPRK nuclear activities 
but also for any future dismantlement of nuclear facilities.
    In order to be able to respond quickly to future denuclearization 
opportunities in North Korea, DOE/NNSA is continuing to work during 
this pause in the Six-Party process to further develop and refine our 
response capabilities to undertake this important national security 
objective.
    Ms. Tauscher and Mr. Langevin. The Nonproliferation and 
Verification Research and Development (R&D) program is the sole 
remaining U.S. government capability for long-term nuclear 
nonproliferation research and development and other critical work that 
helps keep the U.S. on the cutting edge of technology. The program has 
also been thinly staffed in recent years and supports many U.S. 
government entities outside of NNSA. What is NNSA doing to expand and 
strengthen this program, with a particular focus on increasing the 
qualified scientific workforce in this area and developing the capacity 
to direct nuclear material origin and uranium enrichment and plutonium 
reprocessing?
    Mr. D'Agostino. In the last year, we strengthened this program by 
making the following staffing additions: we created new programs for 
addressing emerging requirements for global nuclear safeguards and 
radiological source replacement, and designated a full-time federal 
program manager for these tasks; we created a new forensics program and 
hired a full-time federal program manager and a full-time federal 
supervisor for integrating proliferation detection programs; we took 
advantage of using fellows from the Nonproliferation Graduate Program; 
and we created a Chief Scientist position for better integration of 
efforts across the program. Our cutting-edge, fundamental research at 
the national laboratories attracts both experienced and new 
researchers, thus enhancing the qualified scientific workforce in this 
area.
    Ms. Tauscher and Mr. Langevin. The risk of terrorism involving WMD 
is certainly not limited to the United States, and the success of U.S. 
efforts is dependent in large part on whether our international 
partners share a common recognition of the threat and willingness to 
combat it. How is NNSA working with international partners to address 
these risks? How are our international partners contributing to our 
shared nonproliferation goals?
    Mr. D'Agostino. NNSA works to build self-sustaining indigenous 
capabilities. For example, the International Nonproliferation Export 
Control Program (INECP) works with over 50 countries to combat illicit 
trafficking through strengthened export controls and has successfully 
transferred indigenous Commodity Identification Training capabilities 
and responsibility to approximately 20 countries, which are now 
conducting a state of the art training program on a self-sustaining 
basis.
    Additionally, we continue to support multilateral efforts, e.g., 
working with international partners to build capacities to support 
their obligations under United Nations Security Council Resolution 1540 
and other international agreements and arrangements; exchanging nuclear 
security best practices with Russia, the United Kingdom and China; and 
working with the IAEA to develop robust standards for ``appropriate and 
effective'' material control and physical protection of nuclear 
materials. NNSA's Office of Material Protection and Cooperation 
contributed $1.2M as a voluntary contribution in fiscal year 2009 to 
the International Atomic Energy Agency's (IAEA) Nuclear Security Fund 
(NSF). The funding supports the continued development and 
implementation of the IAEA's efforts to mitigate insider related 
threats and address sustainability of nuclear materials security 
programs.
    The purpose of NNSA's cooperative engagement with the IAEA's NSF is 
to give impetus to the role that material control and accounting plays 
in protecting nuclear material from insider diversion. The funding will 
support activities such as establishment of a joint working group on 
material control and accounting (MC&A), establishment of an informal 
exchange on sustainability best practices, an `Insider Mitigation' 
course, and other technical projects.
    Another venue for exchanging best practices will be through the 
World Institute for Nuclear Security (WINS). The goal of this effort, 
initiated by the Nuclear Threat Initiative (NTI), in partnership with 
the Institute for Nuclear Materials Management (INMM), is to improve 
the security of nuclear materials through the establishment of a new 
organization for the exchange of information on and promulgation of 
``best practices'' for the security of nuclear materials in nuclear 
facilities and for nuclear materials during transportation.
    The MPC&A Program is also promoting nuclear security through the 
Global Initiative to Combat Nuclear Terrorism. By committing to the 
Global Initiative, the United States and sixty-six other countries are 
urged to ``develop, if necessary, and improve accounting, control and 
physical protection systems for nuclear and other radioactive materials 
and substances.''
    The success of the Second Line of Defense (SLD) Program depends 
upon a common recognition of the threat of nuclear terrorism and a 
mutual commitment to long term successful operation of the systems 
provided. Under the SLD Core program, DOE/NNSA provides radiation 
detection equipment and training at border crossings, airports and 
feeder seaports in countries of the FSU, East Europe and Central Asia. 
Many countries with which the Core Program works do not have sufficient 
funds to purchase or install equipment. However, in Russia, the Federal 
Customs Service is funding the installation of radiation systems at 
approximately half of all crossing points, and SLD is funding 
installation at the other half. In Slovakia, SLD has provided 
equipment, and the Slovakians have paid for most installation costs. 
All countries bear the cost of manning and operating the equipment SLD 
has installed.
    Under the SLD Megaports Initiative, DOE/NNSA provides radiation 
detection equipment and training at major seaports throughout the world 
and employs cost sharing in the implementation process wherever 
feasible and appropriate. An important result from cost-sharing is 
often increased buy-in from the host government and terminal operator, 
which offsets potential cost sharing risks related to schedule and 
quality. Although no set formula for cost sharing is available, the 
terminal operator or port authority often pays for design, 
construction, engineering, installation, or a combination of those 
costs. Cost sharing arrangements are site specific and negotiated 
differently for each port.
    The best example of Megaports cost sharing to date is demonstrated 
by Dutch Customs in the Netherlands. In 2004, the Megaports Initiative 
installed four RPMs at the European Container Terminal (ECT) Delta 
Terminal at the Port of Rotterdam as part of a pilot demonstration for 
Dutch Customs to demonstrate the feasibility of monitoring container 
cargo. In 2007, Dutch Customs replaced the U.S. RPMs and installed 40 
sets of RPMs to monitor all import and export containers at the Port of 
Rotterdam. This $40M Dutch investment demonstrates the proof of concept 
for successful cost-sharing and is the model for which the program is 
striving. This cost sharing model has also proven successful in 
Belgium, Colombia, Panama, Mexico and Israel, and is now underway at 
two ports in Spain.
    In addition, several international partners have made monetary 
contributions to DOE/NNSA to support ongoing SLD projects in several 
countries. Through FY 09, DOE/NNSA has received over $10M (US) from 
international partners to support projects to deploy radiation 
detection systems in Ukraine and Kazakhstan. Canada, the United 
Kingdom, New Zealand, and the Republic of Korea have all contributed to 
SLD activities.
    NNSA programs continue to enjoy financial support of international 
partners (see chart of international donations below). International 
partners have contributed $59 million to date. NNSA increasingly relies 
on cost-sharing. For example, the Second of Line of Defense Program has 
cost-shared with Panama, Colombia, Mexico, Belgium, Spain and Israel to 
install radiation detection equipment. Cost-sharing can increase a 
partner country's buy-in and strengthen their commitment as well as the 
longer term sustainability of nonproliferation efforts.
    The Chart below lists all international contributions to these 
programs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Tauscher and Mr. Langevin. With Russia's economic growth, has 
it taken on more responsibility in funding nonproliferation programs 
within its borders? How is NNSA working with our Russian partners to 
move them toward ``cost sharing'' models?
    Mr. D'Agostino. At every opportunity we encourage cost sharing of 
new projects with our Russian counterparts, and have a long list of 
successful examples. Furthermore, we recently developed a Joint 
Transition Plan with Rosatom that identifies specific timelines for 
each site to take over financial responsibility for sustainability-
related activities such as human resources development, regulations 
development, performance testing and training.
    The Ministry of Defense (MOD) informed us that it will take over 
full financial responsibility for sustaining permanent warhead sites 
(11 sites with DOE-funded upgrades, 18 sites with DOD-funded upgrades), 
and that the Kremlin has promised necessary funds will be made 
available.
    Despite these positive developments, we can't be certain that 
Russia's nuclear security budget is increasing as a result of declining 
U.S. support because this budget is classified. Facilities may be asked 
to allocate additional funds to compensate for reduced U.S. support.
    Ms. Tauscher and Mr. Langevin. What is NNSA doing to address issues 
of limited staff capacity, capabilities and resources, which have 
created challenges for implementation of critical nonproliferation 
programs in past years?
    Mr. D'Agostino. The Office of Defense Nuclear Nonproliferation 
(DNN) has generally been able to maintain staffing at roughly 90 
percent of its authorized manpower ceiling. DNN has also economized a 
bit on travel expenditures toward the end of the fiscal year. However, 
NNSA has also given priority to personnel hiring in the 
nonproliferation area, and has also provided additional funding for 
international travel when required. The Nonproliferation Graduate 
Program internships have provided an important pipeline of new Federal 
employees that are well-versed in international relations and national 
security studies, foreign languages and cross-cultural communications, 
international negotiations, program management and interagency 
coordination.
    Ms. Tauscher and Mr. Langevin. Some NNSA nonproliferation programs 
have carried relatively large uncosted and/or unobligated balances in 
past years. Do you expect any NNSA nonproliferation programs to have 
significant uncosted unobligated balances in FY 2009? If so, please 
describe the factors contributing to such balances. Please also 
describe any progress by NNSA to limit uncosted unobligated balances 
for nonproliferation programs and the rationale, if any, for 
maintaining a certain level of such balances for these programs.
    Mr. D'Agostino. Due to the fact that DNN works in 120 countries 
around the world, there are some unique budgeting requirements. DNN 
signs international contracts that typically take 18 to 24 months to 
complete. In order to ensure proper oversight, DNN does not settle 
invoices on international work until it has verified that the work has 
been satisfactorily completed. Even with this rigorous evaluation of 
completed work scope, at the end of FY 2008, the uncommitted balance 
for DNN Programs was 13%, which is consistent with the Department's 
threshold for uncosted balances. This positive trend is expected to 
continue for FY 2009.
    Ms. Tauscher and Mr. Langevin. In a January 2007 report to this 
committee, GAO found that among other security challenges at LANL, the 
Los Alamos Site Office lacked the security staff required to conduct 
oversight of the LANL contractor, and that in many cases site officials 
lacked proper training. From your perspective as Chief Health, Safety 
and Security Officer for all of DOE, does the Los Alamos Site Office 
have an adequate number of properly trained security officers?
    Mr. Podonsky. The Office of Health, Safety and Security (HSS) 
conducts periodic inspections to determine the status of safeguards and 
security programs at DOE and National Nuclear Security Administration 
(NNSA) sites. During the conduct of these inspections, the HSS Office 
of Independent Oversight does not generally focus on the specific 
number of authorized staff but rather on the performance resulting from 
the utilization of available staff at the sites. This is especially 
true in regard to the assessment of Federal oversight of contractor 
performance in specific sub-topical areas.
    HSS Office of Independent Oversight reports in 2003 and 2007 did, 
however, point out shortfalls in the Los Alamos Site Office's (LASO) 
ability to effectively carry out its line management oversight 
responsibilities due to unfilled LASO vacancies. For example, staffing 
constraints played a large part in LASO's inability to conduct a 
required annual safeguards and security site survey, which is a key 
line management oversight mechanism for monitoring and driving 
improvements in contractor performance. These inspection results, 
coupled with the information provided to your committee by the 2007 GAO 
report, suggest the LASO security function has been chronically 
understaffed.
    A special follow-up review conducted by the HSS Office of 
Independent Oversight in February 2008 found that LASO had taken action 
to improve its line management oversight function, which included 
hiring a senior federal employee to serve as the manager of the 
security oversight function, reporting directly to the LASO Manager. 
LASO was also acting to expand its cyber security staff by hiring two 
Cyber Security Operations Mangers and by adding three cyber security 
support contractors.
    NNSA is conducting an exhaustive Federal Oversight Zero-Based 
Security Review to indentify where the consistency and quality of 
Federal oversight functions can be improved. The review was held at 
LANL and benchmarked LASO during its evaluation of Federal oversight. A 
team of subject matter experts from the NNSA Service Center, HSS, and 
several NNSA sites was formed to conduct the review. The team evaluated 
four topical areas: Oversight, Staffing, Communications, and Program 
Management. An evaluation of staffing resulted in an important 
recommendation that NNSA ``Determine and right size the Safeguards and 
Security staffing with appropriate number and capability/skill mix.'' 
In addition, NNSA has recognized the need to augment site office staff 
with additional technical resources and has responded by forming a 
Field Augmentation Cadre (FAC). The FAC provides the site offices with 
access to security experts to assist in conducting surveys of 
contractor operations and other assessment and benchmarking services. 
HSS believes that NNSA is currently directing sufficient attention 
toward resolving this longstanding deficiency at LASO and across the 
NNSA Nuclear Security Enterprise.
    Ms. Tauscher and Mr. Langevin. The FY 2008 National Defense 
Authorization Act requires the GAO and then the NNSA to examine 
alternatives for managing protective forces at all Department sites 
with special nuclear material. Has the GAO contacted the Department 
about this review? Will the Department conduct a concurrent review, or 
wait for the GAO review, as the NDAA allows?
    Mr. Podonsky. Mr. Jonathan Gill, Assistant Director, GAO, conducted 
an entrance briefing concerning the FY 2008 National Defense 
Authorization Act (GAO Engagement 360953) on June 10, 2008. Mr. Gill 
and his team have been in frequent contact with the Department since 
then, and have conducted several field visits and conferences with the 
NNSA program offices and other key stakeholders. The Department is 
awaiting completion of the GAO review in accordance with the FY 2008 
NDAA and will not conduct a concurrent review.
    Ms. Tauscher and Mr. Langevin. The committee understands NNSA has 
established a new security policy--the Graded Security Protection 
policy--to replace the Design Basis Threat (DBT). What prompted this 
change in policy and how is it being implemented?
    Mr. Podonsky. The Office of Health, Safety and Security (HSS), in 
coordination with the Department of Energy (DOE) Program Office and the 
National Nuclear Security Administration (NNSA), established the Graded 
Security Protection (GSP) policy to replace the Design Basis Threat 
(DBT) policy. Two critical factors influenced the revision: the 
intelligence community's reassessment of the threat, and the need to 
analyze and base protection postures on a broad array of possible 
adversary attack scenarios as opposed to a focus on a single worst-case 
scenario. The collaborative annual DBT policy review highlighted the 
need to update the policy in terms of the risk management 
considerations, which include factors such as the consequence posed by 
the loss, theft, and/or unauthorized use of an asset; intelligence 
pertaining to the current and future objectives and characteristics of 
adversaries; and the effectiveness of the Department's and, 
collectively, the Government's security and intelligence programs 
relative to thwarting, providing early warning, and/or mitigating an 
attack.
    DOE/NNSA sites are currently analyzing their robust protection 
postures against the GSP policy to evaluate the security measures 
instituted at each site and identify any additional enhancements or 
changes in protection postures necessary to appropriately implement the 
2008 GSP. These detailed analyses will provide the basis for developing 
site-specific implementations plans. These GSP implementation plans 
will require the review and approval of the respective Program Office 
to ensure that each plan reflects the Department's commitment to 
developing protection postures that minimize the ``footprint'' of 
nuclear material holdings, minimize recurring costs; maximize security 
technologies; and provide for a highly survivable and dynamic tactical 
response force.

    BACKGROUND

    <bullet>  The DBT adversary planning numbers were strongly 
influenced by a single data point and did not reflect improvements in 
the Intelligence Community's analysis, detection, and reporting. 
Intelligence products supporting the DBT were no longer current based 
on observed terrorist activity. Therefore, the GSP restructures the 
adversary numbers based on intelligence and maintains a ``graded'' 
security program on the basis of material attractiveness/consequence 
considerations.

    <bullet>  Interpretation of the Adversary Capability's List (ACL) 
led sites to include ``all'' capabilities from the ACL into a single 
attack scenario. These scenarios exceeded any known or anticipated 
terrorist threat. The binning (``representative'' and ``sensitive'') of 
adversary capabilities to reflect reasonable aggregate threats proved a 
viable solution.

    <bullet>  The lack of a specific policy or guidance requiring 
performance against intelligence reporting did not ensure that sites 
consider intelligence reporting (i.e., adversary Tactics, Techniques 
and Procedures [TTPs]). The GSP counters this by incorporating TTPs as 
intelligence-related ``tasks,'' with each site continuing to develop 
its own site-specific scenarios which demonstrate performance against 
adversary TTPs.

    <bullet>  The DBT allowed for compilation of capabilities and 
focused on a single ``worst-case'' scenario, which resulted in 
significantly over-designed protection postures. This was demonstrated 
by force-on-force exercises that indicated a potential significant 
weakness in the protective force response (i.e. ``looking/leaning in 
one direction''). To redress this weakness, the GSP requires sites to 
develop and analyze against a range of scenarios, evaluate the various 
elements of the protection posture (with appropriate credit for 
security technology), facilitate a dynamic tactical response force, and 
vary scenarios in terms of adversary TTPs, knowledge, role of the 
insider, pathway and threat objectives.

    <bullet>  The DBT did not incorporate the results of recent nuclear 
material technical studies and therefore required a denial strategy for 
all Category I special nuclear material quantities. With the 
integration of specific technical studies, a ``graded'' protection 
strategies approach is utilized.

    <bullet>  Inconsistent interpretation and application of the DBT 
led to sites with like assets protecting to different standards. The 
GSP includes the Scenario Development Review Team (SDRT) process, which 
provides consistent application of the GSP, ACL, and Threat Guidance; 
site-specific scoping agreements based on defensible standards; 
utilization of credible representative scenarios to evaluate system 
effectiveness; and increased confidence in vulnerability assessment 
(VA) results. The cognizant program office provides oversight of the 
SDRT reviews, which are conducted by diverse teams comprised of 
complex-wide VA analysts, subject matter experts, HSS and site office 
security representatives. VA analyst(s) from other sites being reviewed 
also observe and participate in the SDRT.

    <bullet>  The title DBT conveys threat assessment, rather than a 
security planning policy document. Therefore, the document was re-
titled, ``Graded Security Protection'' policy to better delineate the 
scope and purpose of the policy.

    Ms. Tauscher and Mr. Langevin. The FY 2008 National Defense 
Authorization Act directed NNSA--in consultation with your office--to 
conduct an assessment of the physical and cyber security risks posed to 
the nuclear weapons complex and the security technologies employed 
against those threats, and prepare a report identifying the manner in 
which it prioritizes investments in physical and cyber security of the 
weapons complex. The report would be included in the annual Future 
Years Nuclear Security Plan (FYNSP). Is the NNSA working with your 
office in conducting this assessment and report?
    Mr. Podonsky. The National Nuclear Security Administration (NNSA) 
has indeed been working with the Office of Health, Safety and Security 
(HSS) on initiatives that respond to the Fiscal Year 2008 National 
Defense Authorization Act (NDAA) direction. In the case of physical 
security, the HSS Office of Security Technology and Assistance has 
reviewed and provided comments on an NNSA Physical Security Technology 
Management Plan. This plan addresses the items in the NDAA direction. 
NNSA has also sent a representative, tasked with writing the report, to 
interview the Office of Security Technology and Assistance staff and 
obtain additional input and clarification of the comments HSS provided. 
NNSA is preparing a similar plan that addresses issues related to cyber 
security, and we expect that similar coordination will take place not 
only with HSS, but also with the Office of the Chief Information 
Officer.
    Ms. Tauscher and Mr. Langevin. The FY 2008 National Defense 
Authorization Act directed NNSA--in consultation with your office--to 
conduct an assessment of the physical and cyber security risks posed to 
the nuclear weapons complex and the security technologies employed 
against those threats, and prepare a report identifying the manner in 
which it prioritizes investments in physical and cyber security of the 
weapons complex. The report would be included in the annual Future 
Years Nuclear Security Plan (FYNSP).
    How does the Department prioritize investments among physical and 
cyber security?
    Mr. Podonsky. National Nuclear Security Administration's (NNSA) 
physical and cyber security are two separate subprograms within the 
Safeguards and Security Government Performance and Results Act (GPRA) 
Unit and managed separately by NNSA's Associate Administrator for 
Defense Nuclear Security and the NNSA's Chief Information Officer. 
Prioritization of investments for program and budget formulation is 
accomplished first by the individual program managers with respect to 
DOE, including NNSA, program guidance and multi-year program plans. 
Integrated corporate priorities are established in the annual 
programming phase of NNSA's Planning, Programming, Budgeting and 
Evaluation process in which all NNSA program priorities are evaluated 
and balanced within our five year funding targets. Using a risk 
management approach, NNSA makes its investment decisions on the basis 
of the potential adverse consequences associated with threats to the 
assets being protected. This ``graded'' approach works to ensure those 
assets with the highest adverse consequences, such as the loss of 
control of a nuclear weapon, receive the highest priority for resource 
allocation. While mitigation of adverse consequences has been the 
backbone of our prioritization approach, NNSA continues to balance the 
risks to information and cyber security against the heavy demands of 
physically protecting nuclear assets. This balanced approach provides 
the necessary funding, even at the expense of other missions, to ensure 
NNSA security programs provide an acceptable level of security in 
accordance with risk management principles.
    Ms. Tauscher and Mr. Langevin. Your office is the central DOE 
organization responsible for health, safety and security policy 
development, assistance, oversight and enforcement. What is the extent 
of your office's authority in establishing DOE security policies?
    Mr. Podonsky. The basis for the Department of Energy's (DOE) 
authority to establish security policies arises from the Atomic Energy 
Act (AEA) of 1954, which established the Atomic Energy Commission, 
DOE's predecessor agency. Section 161.b of the AEA states:

        ``establish by rule, regulation, or order, such standards and 
        instructions to govern the possession and use of special 
        nuclear material, source material, and byproduct material as 
        the omission may deem necessary or desirable to promote the 
        common defense and security or to protect health or to minimize 
        danger to life or property; in addition, the Commission shall 
        prescribe such regulations or orders as may be necessary or 
        desirable to promote the Nation's common defense and security . 
        . .''

    Today, the Office of Health, Safety and Security (HSS) has the 
responsibility to develop health, safety, and security policies for DOE 
and the National Nuclear Security Administration. Safeguards and 
security policies promulgated by HSS include regulations and directives 
in the topical areas of: Program Planning and Management, Physical 
Protection, Protective Forces, Information Security, Personnel 
Security, and Material Control and Accountability. It should be noted 
that the responsibility for cyber security policy resides in the Office 
of the Chief Information Officer. The development of all safeguards and 
security policy is achieved through collaboration and coordination with 
Program Offices, the National Laboratories, and field sites. The DOE's 
directive development and review process, as prescribed in DOE Order 
251.1C, Departmental Directives Program, ensures that proposed 
directives are reviewed and receive concurrence by the Headquarters 
Program Offices having responsibility for the Laboratories and field 
sites. A similar process is followed for regulations prior to the 
public comment period.
    Ms. Tauscher and Mr. Langevin. Your office is the central DOE 
organization responsible for health, safety and security policy 
development, assistance, oversight and enforcement. Does your office 
have the necessary authorities to execute its oversight mission?
    Mr. Podonsky. The DOE Office of Independent Oversight, within the 
Office of Health, Safety and Security (HSS), derives its oversight 
authorities from DOE Order 470.2B, entitled Independent Oversight and 
Performance Assurance. This DOE Order, which applies to all DOE 
elements, including the National Nuclear Security Administration 
(NNSA), identifies the Office of Independent Oversight as the focal 
point for independent evaluation of DOE sites, facilities, 
organizations, and operations in the areas of safeguards and security; 
cyber security; emergency management; and environment, safety, and 
health. The DOE Order also delineates the requirements for inspected 
entities to provide comprehensive corrective action plans for all 
findings issued by the Office of Independent Oversight.
    The authorities granted to the HSS Office of Independent Oversight 
through this DOE Order are not founded in legislation and are advisory 
in nature. Independent Oversight's role is to provide information to 
DOE senior managers and contractor line managers. Decisions about 
accepting findings, correcting deficiencies, and managing risk are 
ultimately up to the responsible DOE line managers. As such, the 
Independent Oversight program complements the HSS Office of 
Enforcement, which derives its authorities for enforcement activities 
associated with worker safety and health, nuclear safety, and 
classified information security through 10 CFR Parts 851, 820, and 824, 
respectively. Historically, Independent Oversight has received a high 
level of support from DOE senior management; its findings have been 
widely accepted by DOE line management, and its oversight programs have 
contributed significantly to improvements in DOE security, cyber 
security, emergency management, and environment, safety, and health 
programs for more than 25 years.

                                  <all>

</pre></body></html>
